APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket Nos. 17-4039(L), 17-4141(Con)
————
UNITED STATES OF AMERICA,
Appellee,
v.
EFRAIN ANTONIO CAMPO FLORES AND
FRANQUI FRANCISCO FLORES DE FREITAS,
Defendants-Appellants.*
————
Appeal from the United States District Court
for the Southern District of New York,
Paul A. Crotty, Judge.
————
August Term, 2018
Argued: January 24, 2019
Decided: December 20, 2019
————
Before: KEARSE, JACOBS, and SACK,
Circuit Judges.
————
OPINION
————
* The Clerk of Court is directed to amend the official caption
to conform with the above.

2a
KEARSE, Circuit Judge:
Defendants Efrain Antonio
Campo
Flores
(“Campo”) and Franqui Francisco Flores de Freitas
(“Flores”) appeal from judgments entered in the
United States District Court for the Southern District
of New York following a jury trial before Paul A.
Crotty, Judge, convicting them on one count of
conspiracy to import five or more kilograms of cocaine
into the United States, see 21 U.S.C. §§ 963, 959(c),
960(b)(1)(B)(ii), and sentencing each principally to
216 months’ imprisonment and a $50,000 fine. On
appeal, defendants contend principally (a) that the
trial evidence was insufficient to establish their
knowledge that the cocaine in question was to be
imported into the United States, and that the court
erred by instructing the jury that that knowledge
element could be satisfied on the basis of conscious
avoidance; (b) that, with regard to their defense of
entrapment, the government failed to meet its burden
to prove disposition, and (c) that the court abused its
discretion in various evidentiary rulings, including
the admission of a lay opinion identifying a substance
as cocaine, the admission of government agents’
interpretations of certain statements made by
defendants, and the admission, during a witness’s
direct examination, of his written notes and reports
as prior consistent statements as to defendants’
postarrest statements. Defendants also challenge
their sentences, principally contending that an
enhancement under Sentencing Guidelines (“Guidelines”) § 2D1.1(b)(3)(A), applicable when a private
aircraft “was used” to import narcotics, was error
given that their conspiracy was thwarted prior to the
transport of any drugs. For the reasons that follow,
we see no basis for reversal.

3a
I. BACKGROUND
According to the evidence at the nine-day trial in
November 2016, taken in the light most favorable to
the government, the events at issue in this prosecution--all of which took place in 2015--had their origin
in the efforts of Campo and Flores, nephews of Cilia
Flores, the First Lady of Venezuela, to obtain large
quantities of cocaine from a Colombian supplier, and
then to ship the cocaine from Venezuela to drug
traffickers in Honduras. According to Campo, who
from an early age was raised by Cilia Flores and
sometimes referred to her as his mother, defendants
sought to raise $20 million in drug proceeds in order
to fund Cilia Flores’s 2015 campaign for a position in
the Venezuelan National Assembly. The United
States Drug Enforcement Administration (“DEA”)
received word of their efforts and infiltrated
defendants’ discussions.
A. The Trial Evidence
At trial, DEA Special Agent Daniel Mahoney gave
general testimony as an expert on “drug trafficking
routes, particularly the routes used to move cocaine
from South and Latin America, the ways, manor [sic],
means and method of trafficking along those routes
and the prices of cocaine along those routes.” (Trial
Transcript (“Tr.”) at 542-43.) He testified that approximately 90% of the cocaine sent from South America
into Central America is destined for the United
States, and that it is generally known among traffickers in the region that cocaine sent out of South
America and into Central America is headed to the
United States.
The government’s evidence with respect to Campo
and Flores themselves was presented principally
through (A) the testimony of DEA Special Agent

4a
Sandalio Gonzalez, together with his notes and
reports as to defendants’ statements following their
arrests; (B) the testimony of two witnesses--each a
confidential source (or “CS”)--whose identities were
protected by the use of the following pseudonyms:
“Juan Gomez” (“Gomez”), a DEA confidential source,
and “Jose Santos-Pena” (“Santos-Pena”), a former
DEA informant; and (C) video and audio recordings of
meetings attended by Campo and/or Flores in
Venezuela, Honduras, and Haiti, electronic communications between Campo and Santos-Pena, and
electronic communications involving one or both of
the defendants and other drug traffickers, obtained
from cellphones seized from defendants incident to
their arrests.
1. The DEA Learns of Campo and Flores,
and Sends in the Spies
Gonzalez, who coordinated much of the operation
that led to defendants’ arrests, testified that the
DEA’s investigation of Campo and Flores began on
October 3, 2015, when Gonzalez was contacted by
Carlos Amilcar Leva Cabrera, a Honduras-based
drug trafficker known as El Sentado (or “Sentado”).
Sentado was being prosecuted on federal narcotics
charges in the Southern District of New York and
had begun providing assistance to the DEA in an
effort to obtain a cooperation agreement. Prior to
Sentado’s contacting Gonzalez, the DEA had not been
investigating Campo or Flores and did not know who
they were. (See Tr. 172.)
Based on what Sentado told Gonzalez, Gonzalez
instructed him to record a meeting he was scheduled
to have that day in Honduras with Campo and
Flores-using his cellphone, as the DEA would be
unable to get unobtrusive recording equipment to
him in time. Gonzalez also instructed Sentado to try

5a
to contact another DEA cooperating person who was
in Honduras, in order to provide a second witness to
the meeting with Campo and Flores; but Sentado was
not able to get in touch with that person.
Sentado attended the meeting but did not record it.
He later sent the DEA a photograph of himself with,
inter alios, Campo, Flores, and a Honduras-based
Colombian drug trafficker, Cesar Orlando Daza
Cardona (“Daza”), also known as El Flaco (“Flaco” (or
“Flacco”)), who had never provided assistance to the
DEA. Flaco was the person who had introduced
Campo and Flores to Sentado in their quest for
cocaine distributors. (See Tr. 162-63.)
After hearing from Sentado, Gonzalez enlisted
Santos-Pena, a former member of the Sinaloa drug
cartel and long-time DEA confidential source, to meet
with Campo and Flores in Venezuela posing as a
Mexican drug trafficking associate of Sentado.
Santos-Pena went to Venezuela in late October,
accompanied by his son (who was given the protective
pseudonym “Jose Santos-Hernandez” (“SantosHernandez”)), a CS who also had previously worked
with Gonzalez on investigations. Father and son had
also jointly provided assistance to other DEA offices,
as well as to various local law enforcement
departments. For their trip to Venezuela they were
equipped with covert recording devices to document
their meetings with Campo and Flores.
2. Conversations Among Campo, Flores, and
the DEA Confidential Sources
a. Defendants’ October 23, 26, and 27
Meetings With Santos-Pena
Santos-Pena and Santos-Hernandez met with
Campo and Flores on October 23, 26, and 27 and
made recordings of their three business meetings,

6a
which were given to the DEA. At trial, the government played portions of audio recordings and of video
recordings with synched English subtitles, and
introduced translations and transcriptions (with “…”
denoting a pause, and the court explaining that “UI
stand[s] for unintelligible” (Tr. 614-15)). The recordings and Santos-Pena’s testimony about these
meetings included the following.
In the October 23 meeting, Campo said that
defendants had gone to Honduras to meet with
Sentado some weeks earlier and had wanted “ ‘to do
something as soon as possible’ ” (Tr. 612 (quoting
(Government Exhibit (“GX”) 203-T at 4)))--which
Santos-Pena testified he understood to mean that
Campo wanted to “send a delivery of cocaine to
Honduras” (Tr. 612)--but Campo complained about
difficulties in reaching Sentado because he
occasionally “disappeared” (GX 203-T at 5); Campo
said “you can’t disappear so long in this business”
(id.). Santos-Pena explained to Campo and Flores
that Sentado was “extremely cautious” and said “I’m
the person who buys everything from him … and I
am the person who is responsible for taking
everything to the United States.” (GX 203-T at 6.)
Campo explained defendants’ need for speed,
stating that “my mom is running for the election and
I need … twenty million dollars,” and “we need it by
December.” (GX 203-T at 11.) Santos-Pena responded
that he had available “money right now to put up and
hand to you.” (Id.) Campo said that because of
Sentado’s failure to attend “meeting[s] over there, I
started to look around elsewhere” (GX 203-T at 10
(emphasis added)), which Santos-Pena testified he
understood to mean that Campo “was doing other
drug deals with other people,” i.e., other than Sentado
and Santos-Pena (Tr. 615).

7a
At that October 23 meeting, part of the discussion
concerned how the cocaine would be transported.
Santos-Pena explained that portion of the recording
as follows:
Q. Sir, do you see where you say, “Do you want
[me to send] a car for you or will you send a car?”
A. Yes, sir.
Q. What do you mean by “a car” there?
A. An airplane.
Q. To do what?
A. To send
Honduras.

the

drugs

from

Venezuela

to

Q. And do you see … where defendant Campo
says, “I told him I may have the possibility of
providing the car?”
A. Yes, sir.
Q. Who do you understand defendant Campo to
be referring to when he uses the word “him”
here?
A. Mr. Sentado.
Q. Do you see later in that same row where
defendant Campo said, “I had some cars and I
was working with some people over there from
where you guys are from?”
A. Yes, sir.
Q. What did you understand defendant Campo
to mean when he said he had been working with
some people over there from where you guys are
from?
A. He was referring to some Mexicans.

8a
Q. And what kind of work did you understand
did he say he was doing with them?
A. Drug trafficking.
(Tr. 619-20 (quoting GX 203-T at 25).) A defense
objection to the last question and answer was
overruled.
As to the proposed airplane, Campo said “ ‘it
departs from here as if someone from our family were
on the plane.’ ” (Tr. 626-27 (quoting GX 201-T at 39).)
Santos-Pena interpreted this as an assurance that
the drug shipment would be one “hundred percent
safe,” as it would depart on an airplane with an
approved flight plan and official permission to fly.
(Tr. 627.)
At that October 23 meeting, Campo also said he
would ask his supplier for a sample of the cocaine so
that Santos-Pena could “ ‘see what it’s like.’ ” (Id. at
632 (quoting GX 202-T at 10).)
At the meeting on October 26, the negotiations
covered, inter alia, the quantity of cocaine for
defendants’ first planned shipment, the possibility
that defendants would buy an airplane for future
trafficking, the price to be charged by Sentado for
receiving and unloading the cocaine in Honduras, and
how soon defendants would be paid. As to quantity,
Santos-Pena stated: “[T]he thousand kilos, or two
thousand, or three thousand, or five thousand …
whatever you’ll be sending me, we’ll start with those
thousand or eight hundred, whatever you can.” (GX
206-T at 28.) Campo stated: “Yes, let’s get started
right away ….” (Id.)
On the tape Santos-Pena was heard to say “I’ll keep
putting money into it until it gets to Mexico, and I
keep putting money into it to get it over there, and I

9a
keep putting money into it to get it in to the
Americans, to cross it over, and I’m taking all the
risks, but this is the deal, when I do sell, I sell at a
high price” (GX 206-T at 22); he explained what
certain phrases meant:
Q. What did you mean when you said you keep
putting money into it to get it into the
Americans?
A. That I keep investing money to each kilo of
cocaine in order to cover more land and get to the
U.S.
Q. And what were some of the expenses that you
would need--you were referring to here?
A. Transportation and safety.
Q. And … right after the word “Americans” do
you see where it says “to cross it over”?
A. Yes, sir.
Q. What do you mean by, “cross it over”?
A. To cross the U.S. border.
(Tr. 662-63 (quoting GX 206-T at 22).)
There was also discussion of a range of perkilogram prices for cocaine in Honduras. (See Tr. 658,
661-62.) Santos-Pena and defendants agreed that
Santos-Pena would pay them $10 million for the first
planned shipment of 800 kilograms, with “50
percent,” $5 million, to be paid in advance shortly
before the cocaine was to be flown by defendants to
Honduras (Tr. 673; see GX 208-T at 14).
At the meeting on October 27, Santos-Pena was
allowed to “test” a sample of cocaine brought to the
meeting by defendants “in order to see the quality.”
(Tr. 680-81.) The government played portions of the

10a
video recording for the jury; and over defendants’
standing objection (see Part II.A.2. below), SantosPena narrated his inspection of the “kilo of cocaine”
brought to the meeting by defendants:
Q. Sir, what were you doing with the kilo of
cocaine there?
A. I was checking it out to evaluate the quality
and to make sure that it was cocaine.
Q. How were you doing that?
A. I took a little bit with my hands. I smelled it
to see if it smelled of cocaine. I looked at the color
to see what kind of color it had. I rubbed it a
little on my hand so that it would release the oils
on my hand and see how much oil it would
release.
….
Q. Where did you learn to do that test?
A. In Mexico when I worked for the Sinaloa
cartel.
….
Q. And based on that what conclusion did you
come to?
A. That it was cocaine and it was good quality.
(Tr. 692-93.)
The video also showed hands, identified by SantosPena as those of Campo, “putting on latex gloves”
before handling the sample, being careful “not to
leave his fingerprints on the kilo of cocaine” (Tr. 68889), because “ ‘one day it arrives on the other side’ ”
(Tr. 691 (quoting GX 210-T at 23)). Santos-Pena
testified that they were discussing the scenario that
“[t]hat kilo of cocaine that we were opening could go

11a
over to the United States and that they might be full
of our fingerprints, mine and Mr. Campo’s, and
that … we could be arrested because of that kilo by
an agency such as the DEA.” (Tr. 691.)
Santos-Pena testified that after his inspection, the
kilogram of cocaine was then resealed, with his help,
and secured by Campo.
b. Campo’s Ensuing
With Santos-Pena

Communications

After Santos-Pena left Venezuela, he had further
communications with Campo via text messages. On
October 30, after receiving a text from Campo saying
he needed money urgently, Santos-Pena agreed to
pay defendants in full in advance of the actual
cocaine shipment; and he agreed to pay them $11
million instead of $10 million--the then-market value
of the 800 kilograms in Honduras--with any surplus
applied to defendants’ future shipments. (See Tr. 70405 (discussing GX 301-T at 11-12).) Santos-Pena and
Campo also planned to have a test flight from
Venezuela to Honduras in early November so that
defendants’ pilots could “check the logistics.” (Tr.
703.) In a text on November 5 or 6, Campo confirmed
to Santos-Pena that the plan to ship 800 kilograms of
cocaine was on track:
Q. Sir, do you see where Defendant Campo said:
Well, as I was telling you, we have the chairs and
the tables here already packed for 800 people.
The ladder is all set and you guys are ready to
roll there.
A. Yes, sir.
Q. What do you understand the reference to 800
to mean there?
A. 800 kilos of cocaine.

12a
(Tr. 710 (discussing GX 306-T at 13).)
c. Flores’s November 6 Meeting With
Gomez
In early November, Gonzalez had DEA confidential
source Gomez travel to San Pedro Sula, Honduras,
posing as a representative of Santos-Pena. On
November 6, Gomez and Sentado met with Flores
(who was accompanied by his bodyguard, Jesfran
Josnel Moreno (see, e.g., Tr. at 1148-49; GX 68; GX
106; GX 402-T at 2)). Gomez recorded the meeting,
and the government introduced transcripts. Gomez
testified that, Flores, after hearing that Sundays are
generally quieter at the Honduras airport and thus
preferable days for handling narcotics shipments,
stated that he expected the first shipment to be on
Sunday November 15, and that defendants would aim
to have the plane land in the late afternoon. (See Tr.
1161-64.) Flores stated that the “ ‘plane is coming
totally clean’ ” (id. at 1163 (quoting GX 223-T at 6))
from the “ ‘president’s hangar‚’ ” (Tr. 1159 (quoting
GX 222-T at 18)), which Gomez understood to mean
that “the plane was coming from Venezuela without
any problem with the flight plan and everything was
arranged in Venezuela” (Tr. 1163).
d. Defendants’ November
With Santos-Pena

10

Meeting

At the direction of Gonzalez, Santos-Pena arranged
to meet Campo and Flores in Port-au-Prince, Haiti on
November 10--supposedly to hand them their upfront $11 million, but actually to set up their arrests.
On November 10, Santos-Pena met defendants at the
airport in Haiti and drove with them to a restaurant
at a hotel. During the recorded discussion in the
restaurant, defendants confirmed their plan to send

13a
the first shipment of drugs from Venezuela to
Honduras on November 15.
Santos-Pena testified that when he received a
signal from Gonzalez that the arrests were about to
be made, he excused himself, telling defendants he
was “going to go up to one of the rooms to come down
with the $11 million.” (Tr. 718.) Campo and Flores
were then arrested by Haitian authorities coordinating with DEA agents. Later that day, after a
formal DEA request to Haiti for defendants’ expulsion, custody of Campo and Flores was transferred to
Gonzalez and the DEA. Campo and Flores were then
flown to Westchester County in New York.
3. Defendants’ Postarrest In-Flight Statements to Gonzalez
Gonzalez testified that Campo and Flores, after
they had been provided with advice-of-rights forms in
Spanish and had acknowledged understanding their
rights, made various statements to him during the
flight to New York. The interviews had not been
recorded electronically. In addition to Gonzalez’s
testimony as to defendants’ statements, the government introduced into evidence Gonzalez’s notes
and reports of those statements, over defendants’
objections (see Part II.A.1. below). Gonzalez described
the interviews, conducted with each defendant
separately, as follows.
Shortly after the plane took off, Campo, upon
realizing that Gonzalez spoke Spanish, inquired
whether he could ask Gonzalez some questions.
Gonzalez responded that they could talk after the
plane leveled off and Campo had been made aware of
his rights; and they did. Gonzalez took Campo to the
front of the plane, beyond hearing distance of Flores;
Campo asked about the crime for which he had been

14a
arrested. Gonzalez testified that when he responded
that Campo was charged with conspiring to import
narcotics,
[Campo] asked me what if someone went down
the path to commit a crime but then repented
before committing the crime.
Q. What did you understand Campo to mean
when you [sic] asked that question?
MR. JACKSON [Campo’s attorney]: Objection.
THE COURT: Overruled.
THE WITNESS: I understood him to be referring
to the specific cocaine transaction that he had
been arrested to [sic] prior to delivering cocaine.
….
Q. How did you respond to the question?
A. I told Mr. Campo that … there were
recordings of the meetings; that he had traveled
to Honduras, he had connected to Venezuela, and
he traveled to Haiti.
(Tr. 135.) When Campo asked whether Gonzalez had
actual recordings of the meetings, Gonzalez responded by displaying on his cellphone an image taken
from an undercover video recording of the October 27
meeting in Venezuela attended by Campo, Flores,
Santos-Pena, and Santos-Hernandez, which showed
Campo wearing plastic gloves and holding a package
of a white substance.
Gonzalez, when asked what, if anything, he had
said to Campo about the picture, testified as follows:
A. I asked him who was the person in the
picture.

15a
Q. How did Campo react when you asked him
that question?
A. He hung his head and he said it is me.
Q. Did you ask Campo anything else about the
photo … ?
A. Yes, I did.
Q. What else did you ask him?
A. I asked him what he was holding in the
picture.
Q. How did Campo respond?
A. He said you know what that is.
Q. What did you understand Campo to mean
when you said that?
MR. JACKSON: Objection.
THE COURT: Overruled.
….
A. I understood him to be referring to cocaine.
(Tr. 137.)
Gonzalez asked Campo where he had obtained the
cocaine. Campo responded that an individual called
“El Gocho” had provided him with the package in the
photograph. Campo said he had been introduced to El
Gocho by a man known as “Hamudi.” Campo said
that he did not know the actual names of either man
but he knew that Hamudi had recently been killed.
Campo said that it was El Gocho, with whom he
had met about five times, who was to have provided
the 800 kilograms of cocaine for defendants’ first
planned shipment to Sentado, and that El Gocho said
the cocaine was “coming from the FARC”--a reference

16a
to the Fuerzas Armadas Revolucionarias de
Colombia, “a Colombian paramilitary organization …
known to be one of the largest producers of cocaine in
the world” (id. at 149). When Gonzalez asked Campo
how he was planning to ship drugs out of Venezuela,
Campo stated “he didn’t need anybody’s help to do it,
that he could do it because of who he was and the
access that he had at the airport.” (Id. at 150.)
Gonzalez then asked Campo
why he got involved in this deal, in specific
selling cocaine to a Mexican who was going to be
distributing the cocaine in the United States.
Q. How did Campo initially respond to that
question?
A. Campo initially responded that he did not
know the drugs were going to the United States
and that those words never came out of his
mouth.
Q. Did you reply to that?
A. Yes, I did.
Q. What did you say?
A. I reminded him that there are recordings of
his meetings and that he didn’t necessarily have
to say it himself but he knew that the Mexican
individual had said that.
Q. How did Campo respond after you told him
that?
A. He said, yes, but … I didn’t emphasize it.
Q. Now, a moment ago you referred to the
Mexican.
A. Yes.

17a
Q. That’s somebody that Campo referenced
during the interview?
A. Yes, sir.
Q. Who did you understand him to be talking
about when he said that?
A. He was talking about the confidential source,
Mr. Santos Pena.
(Id. at 152-53 (emphases added).)
After this interview ended, Gonzalez took Campo to
the back of the plane and brought Flores to the front.
In the course of the ensuing interview, Gonzalez
asked Flores how he had gotten in contact with
the people in Honduras, and he said that
Hamudi introduced him to a man by the name of
El Flacco in Honduras.
Q. Did Flores provide any further identifying
information for the man he referred to as El
Flacco?
A. Yes.
Q. What else did he say?
A. He said he was Colombian.
Q. Did Flores say anything else about Flacco’s
role?
A. Yes.
Q. What?
A. He stated that Flacco introduced him to El
Sentado and that El Sentado introduced him to
the Mexican.
(Tr. 162-63.)

18a
Flores stated he had gotten involved in the deal
simply to make money; that “the Mexican” would pay
$12,000 per kilogram of cocaine; and that, on the
planned 800-kilogram shipment, Flores expected to
earn $560,000 for himself. Gonzalez testified:
Q. And when Flores referred to the Mexican,
who did you understand him to be referring to?
A. To our informant, Mr. Santos Pena.
Q. Did you ask Flores about the intended
destination for the cocaine?
A. Yes, I did.
Q. What did you ask him?
A. I asked Flores if he knew where the cocaine
was going.
Q. How did Flores respond?
A. Mr. Flores stated that the Mexican had told
him the cocaine was going to Mexico and then to
the United States, and several cities within the
United States.
(Id. at 161 (emphases added).)
Gonzalez also testified that each defendant stated
that he was involved in the cocaine enterprise for
personal gain. Campo said that friends had warned
him against being robbed, and that, as protection, he
had fabricated the story about raising money for the
campaign of Cilia Flores.
4. Other Evidence
Among the other evidence presented by the government at trial were numerous electronic messages
between Campo and Flores or between one of them
and other persons, collected from the cellphones
seized from defendants incident to their arrests.

19a
These included hundreds of messages in August and
September of 2015, i.e., prior to any involvement by
the DEA. (See Part II.B.4. below.)
As to Santos-Pena, the government had brought
out, during its direct examinations of Gonzalez and
Santos-Pena himself, that Santos-Pena was no longer
a DEA informant, having been prosecuted in 2016 for
engaging in drug trafficking while he was a DEA
informant and for lying to the government. As
discussed in Part II.B.1. below, defendants in crossexamination of Santos-Pena elicited that he had also
continued his illegal activities by communicating
with drug trafficking contacts while he was
incarcerated and by lying about it when testifying in
court. In light of these revelations, the government on
Santos-Pena’s redirect examination, in the presence
of the jury, terminated his cooperation agreement.
5. The Defense Case
Neither defendant testified at trial. Their primary
defense was to argue that they lacked knowledge that
the drugs at issue were destined for the United
States; that the only mentions of the United States
came from government informants; and that defendants were the victims of United States Government
entrapment. (See Parts II.B.2.-II.B.4. below.)
B. The Jury Instructions and the Verdict
In instructing the jury, the district court, inter alia,
set out the basic legal elements of the charged
conspiracy, explaining that the government was
required to establish beyond a reasonable doubt that
there existed an agreement to import a controlled
substance into the United States, or to distribute a
controlled substance “intending and knowing that the
controlled substance would be imported into the
United States,” and that defendants knowingly and

20a
intentionally associated with and joined in that
charged conspiracy (Tr. 1492). Over defendants’
objections, the court also instructed that the element
of knowledge that the cocaine in question was to be
imported into the United States would be satisfied if
the jury found that defendants had consciously
avoided knowing that it was to be sent to the United
States (see Part II.B.3. below).
The jury, after deliberating for less than a full day,
found Campo and Flores guilty.
Defendants moved for judgments of acquittal or,
alternatively, for a new trial. The court denied those
motions in an Opinion and Order dated March 24,
2017, see United States v. Flores, S5 15 Cr. 765, 2017
WL 1133430 (S.D.N.Y. Mar. 24, 2017) (“Posttrial
Order”). Pursuant to the 2016 version of the
Guidelines, the district court sentenced each
defendant principally to serve a 216-month term of
imprisonment and to pay a $50,000 fine. (See Part
II.C. below.)
These appeals followed.
II. DISCUSSION
On appeal, defendants--each adopting the arguments made in the other’s brief--contend principally
(1) that the district court erred in several evidentiary
rulings; (2) that the evidence was insufficient to show
(a) that they either knew the drugs in question were
to be imported into the United States or deliberately
avoided gaining that knowledge, or (b) that their defense of entrapment was defeated by predisposition;
and (3) that the application of a sentencing enhancement for private aircraft “used to” import drugs was
inappropriate. For the reasons that follow, we are
unpersuaded.

21a
A. Evidentiary Challenges
Defendants’ principal evidentiary challenges are
that the district court erred in allowing Gonzalez’s
notes and reports as to defendants’ postarrest statements to be admitted during his direct examination,
in allowing Santos-Pena to opine that the sample
substance proffered by Campo was cocaine, and in
allowing Gonzalez and Santos-Pena to testify as to
how they had interpreted certain of defendants’
statements. We review such rulings under an abuseof-discretion standard. See, e.g., Old Chief v. United
States, 519 U.S. 172, 174 n.1, 117 S.Ct. 644, 136
L.Ed.2d 574 (1997); United States v. Caracappa, 614
F.3d 30, 39 (2d Cir.), cert. denied, 562 U.S. 1075, 131
S.Ct. 675, 178 L.Ed.2d 502 (2010); United States v.
Kaplan, 490 F.3d 110, 117-18 (2d Cir. 2007)
(“Kaplan”). A district court abuses its discretion when
“its ruling is based on an erroneous view of the law or
on a clearly erroneous assessment of the evidence, or
if its decision cannot be located within the range of
permissible decisions.” United States v. Cuti, 720
F.3d 453, 457 (2d Cir. 2013) (“Cuti”), cert. denied, 574
U.S. 958, 135 S. Ct. 402, 190 L.Ed.2d 289 (2014).
An evidentiary ruling that is erroneous warrants a
new trial only if it affects a party’s substantial rights.
See Fed. R. Evid. 103(a) (“A party may claim error in
a ruling to admit or exclude evidence only if the error
affects a substantial right of the party ….”); Kaplan,
490 F.3d at 122. “A district court’s erroneous
admission of evidence is harmless ‘if the appellate
court can conclude with fair assurance that the
evidence did not substantially influence the jury.’ ”
United States v. Al-Moayad, 545 F.3d 139, 164 (2d
Cir. 2008) (quoting United States v. Garcia, 291 F.3d
127, 143 (2d Cir. 2002)). “We reverse a district court’s
evidentiary rulings ‘only if we find manifest error,’

22a
that is not ‘harmless.’ ” United States v. Lange, 834
F.3d 58, 79 (2d Cir. 2016) (“Lange”) (quoting United
States v. Miller, 626 F.3d 682, 688 (2d Cir. 2010), cert.
denied, 565 U.S. 933, 132 S.Ct. 379, 181 L.Ed.2d 239
(2011)), cert. denied, ––– U.S. ––––, 137 S. Ct. 685,
196 L.Ed.2d 561 (2017).
1. Gonzalez’s Interview Notes and Reports
Defendants’ principal evidentiary challenge is to
the admission, during Gonzalez’s direct examination,
of his written notes and reports as prior consistent
statements. They argue both (1) that those documents were not proper rebuttal because defendants
did not mount an “express challenge” to Gonzalez’s
memory (Flores brief on appeal at 42 (emphasis in
original)) and did not claim a “recent fabrication” (id.
at 37 (emphasis in original); see also id. at 28 (stating
that defendants’ argument was instead that Gonzalez
“was motivated by his desire for an eventual conviction to fabricate or embellish the confessions at the
time of the interviews” (emphases added))); and (2)
that the government should not have been allowed to
“introduce[ ] those hearsay documents on direct
examination … before Agent Gonzalez had been subjected to any cross-examination or impeachment” (id.
at 29 (emphasis in original)). Given the record in this
case and the permissible uses of prior consistent
statements, we see no abuse of discretion in the
court’s ruling of admissibility, either as to propriety
or as to timing.
Preliminarily, we reject defendants’ characterization of the notes and reports as hearsay. The Federal
Rules of Evidence provide, in pertinent part, that “[a]
statement … is not hearsay [if] … [t]he declarant
testifies and is subject to cross-examination about a
prior statement,” and the statement

23a
(B) is consistent with the declarant’s testimony
and is offered:
(i) to rebut an express or implied charge that
the declarant recently fabricated it or acted
from a recent improper influence or motive in
so testifying; or
(ii) to rehabilitate the declarant’s credibility as
a witness when attacked on another ground ….
Fed. R. Evid. 801(d)(1)(B) (emphases added). Subpart
(B)(ii) was added to Rule 801(d)(1) in 2014; it was
accompanied by the observation that, while subpart
(B)(i) provided for the “substantive admissibility” of
prior consistent statements “that were offered to
rebut charges of recent fabrication or improper
motive or influence,” subpart (B)(i) did not “cover
consistent statements that would be probative to
rebut a charge of faulty memory.” Fed. R. Evid. 801
Advisory Committee Note (2014). The Note explained
that
[t]he intent of the amendment [adding subpart
(B)(ii)] is to extend substantive effect to consistent
statements that rebut other attacks on a
witness--such as the charges of inconsistency or
faulty memory.
Id. (emphases added). As “not hearsay,” such
statements are--subject to the usual prerequisites
such as relevance--admissible as proof of the
substance of the statement.
The district court ruled that Gonzalez’s notes and
reports were admissible under Rule 801(d)(1)(B) in
light of defendants’ opening arguments to the jury. In
those opening statements, defendants launched an
attack on the government’s case based principally on
the fact that their in-flight interviews were not

24a
recorded, and they pointed out, inter alia, that the
interviews had been lengthy and had occurred more
than a year prior to trial. Thus, Flores’s counsel
stated “when th[e] agent tells you what he recalls of
those hour-long statements a year later, you will have
only his word for it without any way to verify what he
is saying.” (Tr. 85 (emphasis added).) Campo’s opening likewise suggested that Gonzalez might not be
sure about “what was actually said” in the interviews.
(Id. at 60.) Defendants also suggested that Gonzalez
had a motive to fabricate or embellish defendants’
statements because the DEA investigation had been
“botched” (id. at 70) in various ways, with the government learning “literally right before this trial began”
that it had to arrest and prosecute Santos-Pena and
Santos-Hernandez (id. at 58; see also id. at 70).
In light of these statements, the government
promptly moved under Rule 801(d)(1)(B)(ii) to be
allowed--as rebuttal to defense counsel’s argument
“that … as to what was said on the airplane” “Agent
Gonzalez’s recollection can no longer be trusted” (Tr.
90)--to introduce Gonzalez’s contemporaneous notes
and DEA reports during his direct testimony. The
court granted that motion, and we see no error.
Although defendants’ opening statement challenges
to Gonzalez’s memory were brief and were not their
main challenges, they were in fact made. Further,
regardless of defendants’ suggestion that Gonzalez
had a motive to fabricate or embellish his descriptions of defendants’ statements as of the time of their
arrests, their arguments that he also had such a
motive based on facts related to Santos-Pena that
were discovered “literally right before this trial
began” (Tr. 58) literally suggested a motive that was
recent. Given this record, we cannot conclude that the
trial judge lacked discretion to rule that the

25a
admission of Gonzalez’s notes and reports would
constitute a proper response to defendants’ attacks on
Gonzalez’s credibility and memory.
Finally, as to timing, we reject defendants’
contention, as stated to the district court in their
motion seeking reconsideration of that ruling, that
Rule 801(d)(1)(B)(ii) is applicable only if the
declarant’s credibility or memory is “challenged
during cross-examination” (Letter from defendants to
Judge Crotty dated November 8, 2016, at 2 (emphasis
in original)). The Rule applies to a witness who “is
subject to cross-examination,” Fed. R. Evid. 801(d)(1)
(emphasis added), about the prior statement; this
language does not restrict admissibility to statements
of one who has already been cross-examined. See, e.g.,
United States v. O’Connor, 650 F.3d 839, 862-63 (2d
Cir. 2011) (“O’Connor”) (trial judge had discretion to
allow introduction of a prior consistent statement
even before the declarant had given any testimony,
where the defendants “had begun their attacks on the
credibility of [the declarant’s] expected testimony in
their opening statements” and “it was clear” that the
declarant would be called to testify and “could be
cross-examined by the defense about the statement”),
cert. denied, 565 U.S. 1148, 132 S.Ct. 1040, 181
L.Ed.2d 791 (2012). Here, where the government
sought permission to introduce the notes and reports
of Gonzalez during his direct testimony, it was clear
that he would be subject to cross-examination.
In sum, we find no abuse of discretion in the trial
court’s ruling as to the propriety or the timing of the
admission of Gonzalez’s notes and reports as prior
consistent statements.

26a
2. Admission of Santos-Pena’s Testimony
Identifying Cocaine
Defendants also contend that the district court
erred in allowing Santos-Pena to testify that the
substance that Campo brought as a sample to the
Venezuela meeting on October 27 was cocaine. The
court allowed Santos-Pena to so testify as a lay
witness. Defendants contend that he so testified as an
expert and that the court erred in not holding a
Daubert hearing, see Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579, 589, 113 S.Ct.
2786, 125 L.Ed.2d 469 (1993), as to the validity of his
testing process. We disagree.
The Federal Rules of Evidence authorize the court
to permit a witness to testify to admissible evidence
in the form of an opinion, either pursuant to Rule 702
as an expert, i.e., one who has “scientific, technical, or
other specialized knowledge” based on his “knowledge, skill, experience, training, or education,” Fed.
R. Evid. 702(a), or pursuant to Rule 701 as a lay
witness. Rule 701 provides that
[i]f a witness is not testifying as an expert,
testimony in the form of an opinion is limited to
one that is:
(a) rationally
perception;

based

on

the

witness’s

(b) helpful to clearly understanding the
witness’s testimony or to determining a fact in
issue; and
(c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule
702.
Fed. R. Evid. 701. In this Rule, part (a)’s rationalbasis requirement “ ‘is the familiar requirement of

27a
first-hand knowledge or observation,’ ” Kaplan, 490
F.3d at 118 (quoting United States v. Rea, 958 F.2d
1206, 1215 (2d Cir. 1992) (“Rea”)); part (b)’s
helpfulness requirement is “principally ‘designed to
provide assurance[ ] against the admission of
opinions which would merely tell the jury what result
to reach,’ ” Kaplan, 490 F.3d at 118 (quoting Rea, 958
F.2d at 1215).
Part (c) of Rule 701 is intended “to prevent a party
from conflating expert and lay opinion testimony
[and] thereby conferring an aura of expertise on a
witness without satisfying the reliability standard for
expert testimony set forth in Rule 702 and the pretrial disclosure requirements set forth in Fed. R.
Crim. P. 16 and Fed. R. Civ. P. 26.” United States v.
Garcia, 413 F.3d 201, 215 (2d Cir. 2005) (“Garcia”).
“Lay opinion under Rule 701 must be limited to
opinions that ‘result[ ] from a process of reasoning
familiar in everyday life.’ ” Cuti, 720 F.3d at 459
(quoting Fed. R. Evid. 701 Advisory Committee Note
(2000)); see also United States v. Yannotti, 541 F.3d
112, 126 (2d Cir. 2008) (“Yannotti”), cert. denied, 556
U.S. 1130, 129 S.Ct. 1648, 173 L.Ed.2d 999 (2009).
With respect to the type of evidence needed for the
identification of chemical substances,
courts have permitted lay witnesses to testify
that a substance appeared to be a narcotic, so
long as a foundation of familiarity with the
substance is established. … Such testimony is not
based on specialized knowledge within the scope
of Rule 702, but rather is based upon a
layperson’s personal knowledge.
Fed. R. Evid. 701 Advisory Committee Note (2000)
(emphases added). Thus,

28a
neither actual drug exhibits nor reports of chemical analysis are required to support a conviction
for possession of a controlled substance. … As we
noted in Bryce, “[l]ay testimony and circumstantial evidence may be sufficient, without the
introduction of an expert chemical analysis, to
establish the identity of the substance involved
in an alleged narcotics transaction.”
United States v. Gaskin, 364 F.3d 438, 460 (2d Cir.
2004) (quoting United States v. Bryce, 208 F.3d 346,
353 (2d Cir. 1999) (other internal quotation marks
omitted)), cert. denied, 544 U.S. 990, 125 S.Ct. 1878,
161 L.Ed.2d 751 (2005); see also Melendez-Diaz v.
Massachusetts, 557 U.S. 305, 329 n.14, 129 S.Ct.
2527, 174 L.Ed.2d 314 (2009) (“we disagree with the
dissent’s contention … that only an analyst’s testimony suffices to prove [the] fact that the substance is
cocaine” (internal quotation marks omitted)).
As set out in Part I.A.2.a. above, Santos-Pena
testified that the sample substance presented by
defendants at the meeting in Venezuela on October
27 was cocaine. Prior to trial, defendants had moved
in limine to preclude any such expert testimony by
either Santos-Pena or Santos-Hernandez. The government argued that it instead proposed to offer their
testimony as lay opinions. The district court ruled
that Santos-Pena would be allowed to identify the
substance as cocaine as his lay opinion, given his
“established” “familiarity with cocaine” and the fact
that at that meeting “he saw, touched, and smelled
the substance.” (Pretrial Hearing Transcript, November 2, 2016, at 5 (internal quotation marks omitted).)
The court stated that the fact that Santos-Pena had
not also ingested the substance did not suffice to
preclude him from giving his lay opinion that it was
cocaine. However, the court excluded any opinion

29a
testimony by Santos-Hernandez, in part because he
had only viewed the substance and had made no
tactile, olfactory, or other examination. (See id. at 56.)
On appeal, defendants maintain that Santos-Pena
testified as an expert because his “testimony that he
could determine the identity and purity of cocaine by
extracting an unknown grease from it was precisely
the type of ‘technical, or other specialized’ knowledge
that is the province of Rule 702” (Campo brief on
appeal at 45 (emphasis added)), and that because
Santos-Pena was not qualified as an expert in accordance with Rule 702, his testimony was improperly
admitted. Defendants also argue that because the
tests to which Santos-Pena subjected the substance
proffered by Campo did not include ingestion, they
were insufficient to permit him to reach a rational
opinion that it was cocaine because “[w]hen a drug
user gives expert opinion testimony as to the identity
of a substance based on his experience ingesting the
particular substance, the drug user infers the identity
of the substance based on the effects of the substance
when ingested.” (Campo brief on appeal at 42 (internal quotation marks omitted) (emphases ours).) We
reject both the contention that Santos-Pena testified
as an expert and the proposition that he could not
properly give his lay opinion that a substance
contained cocaine without having ingested it.
Preliminarily, we note that defendants’ assumption
that Santos-Pena must have testified as an expert
because he opined on “purity” (Campo brief on appeal
at 45) exaggerates the record. The only reference to a
specific degree of purity (“[n]inety-five to ninetyseven”) was in Santos-Pena’s recorded statement to
defendants at the October 27 meeting (GX 213-T at 34). At trial, Santos-Pena did not testify that the

30a
cocaine sample had any particular degree of purity,
other than to say that it was of “good quality” (Tr.
693). Nor was there any need for evidence as to the
sample’s degree of purity, as it is unlawful to import
or conspire to import a substance containing any “detectable amount” of cocaine, 21 U.S.C. § 960(b)(1)(B);
see id. § 963.
Moreover, the court plainly and properly did not
allow Santos-Pena to testify as an expert, nor did he
purport to do so. Santos-Pena was not a chemist. He
testified that his tests “didn’t involve any special
instruments” (Tr. 917); nor had he had any training
in scientific analysis of chemical substances (see id. at
923-24). Indeed, Santos-Pena had no schooling past
the fourth grade. (See id. at 186.) Rather, he used
quick and practical tests for assessing whether a
substance contained cocaine. Further, although
Santos-Pena was a “drug user” (Campo brief on
appeal at 42 (internal quotation marks omitted)),
Santos-Pena did not purport to base his opinion on
his experience as, or its effect on, a user. Rather, the
tests he used--which, though not scientific, were
plausible as a practical matter--made it possible for
him to make such a determination without any
ingestion of the substance.
The other foundations of Santos-Pena’s familiarity
with cocaine, and of his ability to determine its
presence without testing by ingestion, were
established by his decade of dealing with cocaine
while working for the Sinaloa drug trafficking cartel
from 1991 to 2000. (See Tr. 681.) Santos-Pena
testified that in examining the sample substance
handed him by Campo, he conducted the tests he had
been taught to use “[i]n Mexico when [he] worked for
the Sinaloa cartel.” (Id. at 693.) They entailed
“[s]melling [the cocaine], looking at it, and rubbing it

31a
on [his] hand.” (Id.) Sinaloa cartel personnel used
these tests “[b]ecause when we received drug shipments from Colombia” to be sold to drug traffickers in
the United States, “[we] had to confirm that it was
actually cocaine” (id. at 920, 921)--in order to avoid,
as defense counsel characterized it and Santos-Pena
acknowledged, the “known risk within the drug
business” (id. at 921).
Santos-Pena testified that in dealing with those
shipments from Colombia, to be sure they actually
contained cocaine, “what we did is we very quickly
opened up one kilo just randomly. We would open it
to confirm that it was cocaine. And that was the test,
the smell, by sight, by color, and the quality.” (Id. at
920.) Thus, while there was no indication that
Santos-Pena was an educated expert or had had
training in any technical aspect of substance identification, the provenance of the tests he used--an
established drug cartel’s standard practice--provided
a rational basis for Santos-Pena’s ability to evaluate
the substance submitted for his personal examination. Given that there was no physical substance
available for examination by the jury--whose
members, in any event, likely did not share SantosPena’s testing experience--it was well within the
district court’s discretion to allow Santos-Pena to give
his lay opinion that the sample substance proffered
by defendants was cocaine, as an opinion that would
be helpful to the jury in determining defendants’
knowledge and intent to participate in a cocaine
trafficking conspiracy.
3. Testimony
Statements

Interpreting

Defendants’

Defendants also contend that the district court
abused its discretion in allowing Gonzalez and
Santos-Pena to provide their interpretations of certain

32a
statements made by Campo. Although defendants at
trial objected to several requests for such witness
interpretations and were granted a standing objection, their appellate briefs target just two Gonzalez
interpretations of statements by Campo during his
postarrest interview and one Santos-Pena interpretation of a Campo statement in the October 23 meeting.
Both Gonzalez and Santos-Pena were so testifying as
participants in the conversations and as to what they
had understood defendants to mean, i.e., as lay
witnesses rather than as experts, and we reject
defendants’ challenges, given the Rule 701 principles
discussed above.
The Gonzalez responses challenged here are (1)
after Gonzalez told Campo he had been arrested for
conspiracy to import narcotics into the United States,
and Gonzalez was asked what he understood Campo
to mean in responding “what if someone went down
the path to commit a crime but then repented before
committing the crime,” Gonzalez testified that he
understood Campo to be referring to the cocaine
undertaking for which he had just been arrested
without actually delivering cocaine (Tr. 135); and (2)
after Gonzalez asked Campo what the packaged
white substance was that he was holding in the
picture of himself wearing gloves, and was asked
what he understood Campo to mean in responding
“you know what that is,” Gonzalez testified that he
understood Campo to mean cocaine (id. at 137). The
first of Campo’s statements was somewhat opaque;
and the second was one that might have had different
meanings, depending on the speaker’s tone, facial
expression, or gestures. But plainly, Gonzalez’s
interpretations were the product of reasoning
processes familiar to the average person, rather than
being based on scientific, technical, or other

33a
specialized knowledge. And while it seems likely that
the jury would have reached the same understandings Gonzalez did as to the meanings of those
statements, his interpretations need not have been
essential to enable the jury to have a clear understanding so long as they were “helpful,” Fed. R. Evid.
701(b). The Rule allows a lay opinion that “affords the
jury an insight into an event that was uniquely
available to an eyewitness. In this respect, the Rule
recognizes the common sense behind the saying that,
sometimes, ‘you had to be there.’ ” Garcia, 413 F.3d at
212.
The other interpretation to which defendants object
here concerned Campo’s October 23 statement to
Santos-Pena that “ ‘I had some cars and I was
working with some people over there from where you
guys are from’ ” (Tr. 619 (quoting GX 203-T at 25)).
As we have recognized, “individuals engaging in illicit
activities rarely describe their transactions in an
open or transparent manner and the government
may call witnesses to provide insight into coded
language through lay opinion testimony,” Yannotti,
541 F.3d at 126, and we see no error in allowing such
insight in this instance.
Santos-Pena had interpreted “cars” to mean
airplanes (Tr. 619 (internal quotation marks omitted));
with respect to the latter part of Campo’s statement
he interpreted “people” to mean Mexicans; and, over
a defense objection, he interpreted “working” to mean
drug trafficking (Tr. 620). This was hardly the only
instance in which Campo used “work” to refer to drug
trafficking. Most obviously, two days after the initial
drug transaction negotiation with Sentado, Campo
had texted Sentado and said “[w]hat I want is to start
work because the electoral campaign is almost here
and I always contribute … [w]ith money if you know

34a
what I mean that is why I want to start work” (GX
3508-38-T at 2 (October 5, 2015 text from Campo to
Sentado)). It is entirely possible that the jury would
have inferred on its own that Campo’s reference to
“working” in his conversation with Santos-Pena also
meant drug trafficking. Nonetheless, Santos-Pena’s
understanding as to what Campo meant by “working,” i.e., drug trafficking--in their conversation about
drug trafficking--was admissible as helpful to the jury
in understanding defendants’ coded language.
B. Sufficiency of the Evidence
Defendants challenge the sufficiency of the evidence at trial to support their convictions, contending
principally (1) that we should “disregard” as incredible the testimony of Santos-Pena and just “test
the sufficiency of whatever evidence might be left”
(Campo brief on appeal at 26); (2) that there was
inadequate proof that defendants had any knowledge
that the destination of the drugs would be the United
States; (3) that there was no evidence that they
deliberately avoided gaining such knowledge; and (4)
that the government failed to rebut their defense of
entrapment. We reject all of these challenges.
In mounting a challenge to the sufficiency of the
evidence, “defendants face a heavy burden, as the
standard of review is exceedingly deferential” to the
jury’s apparent determinations. United States v.
Baker, 899 F.3d 123, 129 (2d Cir.) (internal quotation
marks omitted), cert. denied, ––– U.S. ––––, 139 S.
Ct. 577, 202 L.Ed.2d 411 (2018). It is well established
that “the government is entitled to prove its case
solely through circumstantial evidence,” United
States v. Rodriguez, 392 F.3d 539, 544 (2d Cir. 2004);
and when the offense at issue is conspiracy, “deference to the jury’s findings is especially important …
because a conspiracy by its very nature is a secretive

35a
operation, and it is a rare case where all aspects of a
conspiracy can be laid bare in court,” United States v.
Rojas, 617 F.3d 669, 674 (2d Cir. 2010) (internal
quotation marks omitted). On appeal from a
judgment of conviction, we “view the evidence in the
light most favorable to the government, crediting
every inference that could have been drawn in the
government’s favor.” United States v. Chavez, 549
F.3d 119, 124 (2d Cir. 2008). A sufficiency challenge
must fail if “any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307,
319, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979) (emphasis
in original).
It is also well established that “[i]t is the province
of the jury and not of the court to determine whether
a witness who may have been inaccurate, contradictory and even untruthful in some respects was
nonetheless entirely credible in the essentials of his
testimony.” O’Connor, 650 F.3d at 855 (internal
quotation marks omitted) (emphasis ours). A jury is
entitled to believe part and disbelieve part of the
testimony of any given witness. See, e.g., Lore v. City
of Syracuse, 670 F.3d 127, 150 (2d Cir. 2012); Fiacco
v. City of Rensselaer, 783 F.2d 319, 325 (2d Cir. 1986),
cert. denied, 480 U.S. 922, 107 S.Ct. 1384, 94 L.Ed.2d
698 (1987); United States v. Josephberg, 562 F.3d
478, 494 (2d Cir.) (“when testimonial inconsistencies
are revealed on cross-examination, the jury [i]s
entitled to weigh the evidence and decide the
credibility issues for itself” (internal quotation marks
omitted)), cert. denied, 558 U.S. 965, 130 S.Ct. 397,
175 L.Ed.2d 302 (2009).
A defendant’s challenge to witnesses’ “credibility
based on their plea agreements with the government
and their long histories of criminal and dishonest

36a
behavior” is subject to these standards. United States
v. Florez, 447 F.3d 145, 156 (2d Cir.) (“Florez”), cert.
denied, 549 U.S. 1040, 127 S.Ct. 600, 166 L.Ed.2d 445
(2006); see, e.g., United States v. Riggi, 541 F.3d 94,
108 (2d Cir. 2008) (“All issues of credibility, including
the credibility of a cooperating witness, must be
resolved in favor of the jury’s verdict.”). “We will not
attempt to second-guess a jury’s credibility determination,” and “we will assume that the jury ‘resolve[d]
all issues of credibility in favor of the prosecution.’ ”
Florez, 447 F.3d at 156 (quoting United States v.
Khan, 787 F.2d 28, 34 (2d Cir. 1986)).
1. The Testimony of Santos-Pena
Given these principles, we reject the contention
that the testimony of Santos-Pena should be entirely
disregarded. At trial Campo and Flores extensively
explored Santos-Pena’s credibility on cross-examination by, inter alia, emphasizing that for several years
during the time he operated as a DEA confidential
informant, he engaged in extensive unauthorized
drug trafficking activities; that the government
learned of those activities in 2016; and that in
September 2016, just two months before defendants’
trial, Santos-Pena pleaded guilty to charges of
importing drugs into the United States, distributing
drugs in the United States, and lying to the
government. (See Tr. 725-33, 756-57, 879-94; see also
id. at 602, 684, 719.) Defendants also elicited new
evidence that following that guilty plea Santos-Pena
had continued his illegal activities by communicating
with Santos-Hernandez and other drug traffickers
from prison, and had lied under oath about having
done so when he testified in the present case. (See id.
at 951-80.)
However, these were factors for the jury to assess,
and the jury was properly instructed that it was

37a
“quite free to reject all or any part of [Santos-Pena’s]
testimony” (Tr. 1482). As Santos-Pena’s testimony
with respect to his dealings with defendants was not
incredible as a matter of law--indeed, most of those
dealings had been captured in recordings--we decline
defendants’ request to disregard it in our assessment
of the sufficiency of the evidence.
2. Knowledge or Belief as to Likely United
States Importation
Title 21 of the United States Code provides, inter
alia, that it is unlawful for any person (i) “knowingly
or intentionally” to “import[ ] … a controlled
substance” into the United States, 21 U.S.C. §§ 960,
952 (2015); or (ii) “to manufacture or distribute a
controlled substance … intending … or … knowing
that such substance … will be unlawfully imported
into the United States,” id. § 959(a); or (iii) to
“conspire to commit” such offenses, id. § 963. “To
prove intent, of course, the government must show
knowledge, for ‘knowledge is the foundation of
intent.’ ” United States v. Torres, 604 F.3d 58, 66 (2d
Cir. 2010) (quoting Direct Sales Co. v. United States,
319 U.S. 703, 711-12, 63 S.Ct. 1265, 87 L.Ed. 1674
(1943)).
“The crux of a conspiracy is an agreement between
two or more persons to join together to accomplish
something illegal.” United States v. Lyle, 919 F.3d
716, 737 (2d Cir. 2019). That agreement “may be tacit
rather than explicit.” United States v. Zhou, 428 F.3d
361, 370 (2d Cir. 2005) (internal quotation marks
omitted). To establish a conspiracy-to-import offense,
the government is required to prove, inter alia, that
the defendant knew or believed that the conspiracy
involved narcotics bound for the United States. See,
e.g., United States v. Romero-Padilla, 583 F.3d 126,
129 (2d Cir. 2009) (“Romero-Padilla”), cert. denied,

38a
559 U.S. 930, 130 S.Ct. 1304, 175 L.Ed.2d 1106
(2010); United States v. Londono-Villa, 930 F.2d 994,
998 (2d Cir. 1991) (“Londono-Villa”). And “[a]lthough
knowledge is, fundamentally, belief substantiated by
veracity,” “in the context of a sting operation” “belief
is tantamount to knowledge.” United States v.
Nektalov, 461 F.3d 309, 316 (2d Cir. 2006).
While it is seldom feasible to present direct
evidence of a person’s state of mind, it is often
possible to infer knowledge or belief from outward
manifestations such as a defendant’s statements or
conduct, or from the circumstances surrounding or
attendant upon facts he or she is alleged to have
known. See United States v. O’Brien, 926 F.3d 57, 79
(2d Cir. 2019); United States v. Nersesian, 824 F.2d
1294, 1314 (2d Cir.), cert. denied, 484 U.S. 958, 108
S.Ct. 357, 98 L.Ed.2d 382 (1987). For example,
evidence that a defendant was aware that “narcotics
transported from Colombia to Mexico typically do not
remain in Mexico because their value is considerably
higher in the United States” provides some evidence
that he knew the cocaine at issue was to be imported
into the United States. Romero-Padilla, 583 F.3d at
130.
To meet its burden to prove knowledge in this case,
the government sought to show that Campo and
Flores either actually knew the cocaine was to be
imported into the United States, or (see Part II.B.3.
below) believed it was and consciously avoided
gaining that knowledge. Contrary to defendants’
supposed argument that there is “no evidence” that
they “understood or agreed to any decision to send
narcotics to the United States” (Campo brief on
appeal at 21), defendants also state that their
“supposed confessions” to Gonzalez in-flight “were the
only direct evidence that the defendants believed that

39a
the drugs at issue were bound for the United States”
(Flores brief on appeal at 28 (emphases added); see
also id. at 2 n.1, and Campo brief on appeal at 16 n.3
(each defendant adopting the other’s arguments on
appeal)). Our review of the record persuades us that
that direct evidence of defendants’ statements and
the additional circumstantial evidence of such
knowledge were ample to permit a rational juror to
infer that defendants well knew or at least actually
believed and agreed that the cocaine they sought to
sell to Sentado in Honduras was to be sent on to the
United States.
As a general matter, DEA Special Agent Mahoney
testified that the approximate price of a kilogram of
cocaine was $10,000-$12,000 in Honduras or Guatemala, but $25,000 in the United States. (See Tr. 547.)
The mere fact that defendants planned to have the
cocaine flown to Honduras would not alone have been
sufficient to support a finding that these defendants
knew the cocaine would be sent to the United States.
For example, in Londono-Villa, the defendant’s role
was to guide a pilot from Panama to a certain
Colombian airstrip in a roundabout way that the pilot
would be unable to duplicate, and to verify that the
cargo delivered to the plane in Colombia was cocaine,
after which the plane returned to Panama and the
defendant remained in Colombia. See 930 F.2d at
995-96. We concluded that evidence that Panama is
sometimes used as an interim stop for drugs
ultimately intended for importation into the United
States was not sufficient to show that the defendant
had knowledge of the United States as a destination
given that he “was not involved in any of the lengthy
negotiations for the sale of the cocaine,” there was “no
evidence that [he] had been told that the United
States was to be the ultimate destination of the

40a
cocaine,” and there was “no evidence that the United
States was ever mentioned in his presence,” id. at
1001 (emphases added). But in the present case,
there was evidence of all these indicia of knowledge
that we found meaningfully absent in Londono-Villa,
including the following.
First, Campo and Flores were participants in all
four of the meetings held in October with Sentado or
Santos-Pena; indeed, Campo and Flores were
principals. Second, although it is not clear whether
importation into the United States was discussed at
the very first (October 3) meeting, the government
introduced into evidence recordings of the other three
October meetings and of the November 10 meeting, in
which Santos-Pena or Santos-Hernandez met with
defendants and made a total of more than a dozen
references to the trafficking of drugs into the United
States, including the following:
• At the October 23, 2015 meeting with defendants
in Venezuela, Santos-Pena said explicitly that he was
“the person who buys everything from” Sentado,
“taking everything to the United States” (GX 203-T at
6 (emphasis added));
• at the same meeting, after Campo had described
agreeing with Sentado to “do something,” SantosHernandez (listed as CS-2) said:
CS-2: You know that we send a lot of that to…
Campo: Of course.
CS-2: … to New York ….
(GX 201-T at 5 (emphases added));
• at the October 26 meeting, Santos-Pena
explained he would “keep putting money into it until
it gets to Mexico” and “keep putting money into it to

41a
get it in to the Americans,” and Campo directly
responded, “Of course” (GX 206-T at 22 (emphases
added));
• during that October 26 meeting, Santos-Pena
stated that “starting December eighth or twelfth”
when “the border gets very harsh surveillance,” he
would stop shipping cocaine “into the United States”
(GX 206-T at 33 (emphasis added));
• in Haiti on November 10, after Campo asked
Santos-Pena if he did not like working in Europe,
Santos-Pena said “my business is right there inside
the United States, which is your business as well
because you are the owner of that work”; and when
Santos-Pena said “in New York I sell it for thirty-six,
thirty-nine for each one,” Campo responded simply,
“Sure” (GX 230-T at 8, 6 (emphases added));
• and at that final meeting, when Santos-Pena
(listed as CS-1) said “once you have finished up with
your mom’s commitments, you tell me, ‘You know
what? There go one thousand, of the one thousand,
only pay me eight hundred,’ as an example, ‘pay me
nine hundred, whatever you want,’ ” here is how
defendants responded:
Campo: Yes, well, we discussed that yesterday …
CS-1: “And one hundred or two hundred …”
Campo: Put them in for me over there …
CS-1: “… sell them for me in New York.”
Campo: Yes [U/I].
CS-1: So that you can see what one hundred kilos
implies in New York.
Flores: Sure, [U/I].
(GX 230-T at 8 (emphases added).)

42a
Finally, at Santos-Pena’s meeting with Campo and
Flores on October 26, Santos-Pena stated, inter alia,
that the per-kilogram price of cocaine in Honduras
fluctuated between $12,000 and $14,000 (see GX 206T at 18), and “if I sell in New York, I sell it for fortyseven thousand” (id. at 23). Santos-Pena later agreed
to buy defendants’ 800 kilograms of cocaine for $11
million; that would cost Santos-Pena $13,750 per
kilogram. Even if Santos-Pena had not explicitly told
Campo and Flores on October 26, “I sell … high,” no
rational person could infer that Santos-Pena would
plan to sell those 800 kilograms in Honduras for a
profit of less than 2%--or for a loss--when he has told
them he could sell it in the United States for more
than three times what he was to pay them for it.
All of this circumstantial evidence easily permitted
the jury to find that defendants had the requisite
knowledge that the cocaine they planned to have
flown to Honduras would ultimately be bound for the
United States. Indeed, the recorded statements
directly support Gonzalez’s testimony that, when he
asked Flores whether Flores knew the cocaine was to
go to the United States, “Flores stated that the
Mexican had told him the cocaine was going to
Mexico and then to the United States, and several
cities within the United States” (Tr. 161).
3. Conscious Avoidance
At the request of the government, and over
defendants’ objections, the court gave an instruction
that the jury could find that the disputed knowledge
element of the charged conspiracy was proven if it
found that defendants consciously avoided knowing
that the cocaine they were to sell to Sentado and
Santos-Pena was to be imported into the United
States:

43a
In determining whether the defendants acted
knowingly and intentionally regarding the object
or purpose of the conspiracy, you may consider
whether the defendants deliberately closed their
eyes as to what otherwise would have been
obvious…. [O]ne may not willfully and intentionally remain ignorant of a fact that is material
and important to one’s conduct in order to escape
the consequences of the criminal law.
(Tr. 1504 (emphasis added); see also id. at 1505 (“if
you find that the defendants were aware of a high
probability that the conspiracy at issue … was to
import cocaine into the United States, and the
defendants consciously avoided confirming that fact,
you may infer that they implicitly had knowledge”).)
On appeal, defendants do not challenge the content
of the court’s conscious-avoidance instruction. (See
Flores reply brief at 7 n.1.) Rather, they contend (a)
that giving any instruction as to that concept was
improper because there was no factual predicate for
it, arguing that there was no evidence that they
“deliberately avoided learning--or forming a belief”
that the cocaine would be bound for the United States
(Flores brief on appeal at 21 (emphasis in original)),
and (b) that giving such an instruction “improperly
permitted the jury to substitute conscious avoidance
for knowledge of the existence of the conspiracy” (id. at
25-26 (emphasis added)). We reject both contentions.
The latter contention warrants little discussion, as
it is squarely refuted by the conscious avoidance
instruction as given. The court stated:
I want to be clear that this concept only applies
when determining whether a defendant knew
the objects or purposes of the conspiracy; it does
not apply when determining whether a defen-

44a
dant knowingly participated in the conspiracy. It
is logically impossible for a defendant to join a
conspiracy unless he knows that a conspiracy
exists. Thus, for example, if you find that the
defendants were aware of a high probability that
the conspiracy at issue in Count One was to
import cocaine into the United States, and the
defendants consciously avoided confirming that
fact, you may infer that they implicitly had
knowledge; if, however, the defendants actually
believed that the conspiracy was not to import
cocaine into the United States, or if the
defendants were merely negligent or careless with
regard to the knowledge they had, they lacked the
knowledge necessary to become a coconspirator.
(Tr. 1504-05 (emphasis added).)
As to defendants’ contention that there was
insufficient evidence to indicate that they deliberately avoided knowing that the cocaine was to be sold
in the United States, the district court expressly
recognized the principle that a conscious avoidance
charge is not warranted in the absence of such
evidence:
“[a] conscious avoidance instruction may only be
given if (1) the defendant asserts the lack of
some specific aspect of knowledge required for
conviction, and (2) the appropriate factual
predicate for the charge exists ….” United States
v. Svoboda, 347 F.3d 471, 480 (2d Cir. 2003)
(internal quotation marks and alteration
omitted). The second prong of the test “has two
components--there must be evidence that the
defendant (1) was aware of a high probability of
the disputed fact and (2) deliberately avoided
confirming that fact.” Id. “A factual predicate
may be established where a defendant’s involve-

45a
ment in the criminal offense may have been so
overwhelmingly suspicious that the defendant’s
failure to question the suspicious circumstances
establishes the defendant’s purposeful contrivance to avoid guilty knowledge.” United States
v. Lange, 834 F.3d 58, 78 (2d Cir. 2016) (internal
quotation marks and alteration omitted).
Posttrial Order, 2017 WL 1133430, at *6.
As discussed above, although it is rare to have
direct evidence of a person’s state of mind, it may be
possible to infer a person’s knowledge, belief, or
intent from, for example, his or her statements or
conduct, or from the circumstances. Here, the district
court (referring to Campo as “Campo Flores”) aptly
pointed to all of these sources in rejecting defendants’
contention that there was no evidence that they had
deliberately avoided knowing or believing that their
cocaine was bound for the United States:
The government presented evidence that
Defendants made a tactical decision not to
confirm that the cocaine was bound for the
United States. There are at least 13 recorded
instances where the CSes made statements about
taking drugs to the United States. Yet in all of
those instances, Defendants never really respond
to the CSes’ statements. Campo Flores appears
to have provided the explanation for why. In his
confession, Campo Flores initially took the
position “that he did not know the drugs were
going to the United States and that those words
never came out of his mouth.” Tr. 152. However,
after DEA Special Agent Sandalio Gonzalez
explained to Campo Flores that “there are
recordings of his meetings and that [Campo
Flores] didn’t necessarily have to say it himself
but knew that the Mexican individual had said

46a
that,” Campo Flores responded “yes, but I didn’t
emphasize it.” Tr. 153. This is strong evidence
that, in order to maintain deniability, Defendants made a conscious attempt to avoid confirming that the target of the conspiracy was the
United States.
Posttrial Order, 2017 WL 1133430, at *7 (emphases
ours). The court added that
in fact, because Defendants did not respond to
the CSes’ repeated references to the United
States, the defense was able to use as a theme
throughout the trial that Defendants did not
know the target of the conspiracy was the United
States.
Id. For example, in summation defense counsel
emphasized that defendants themselves had made
“[z]ero” “references to importation … into the United
States” and that they “basically never respond[ed]” to
the dozens of such references made by the CSes. (Tr.
1360-62.) As the district court observed, a “ ‘purposeful contrivance to avoid guilty knowledge’ ” may be
inferred from the fact that defendants declined to
mention the ultimate destination for the cocaine
“after the CSes’ myriad references to taking drugs to
the United States,” Posttrial Order, 2017 WL
1133430, at *7 (quoting Lange, 834 F.3d at 78).
In addition, we note recorded conversations in
which defendants, in discussing other drugs,
explicitly showed keen interest in the fact that those
drugs fetched higher prices in the United States than
elsewhere. For example, on October 27, Campo
referred to “tusi” (Tr. 694)--apparently another
Colombian drug (see GX 213-T at 9)--a kilogram of
which Campo said “on the market costs” “Fifty
thousand dollars. Here!” (GX 213-T at 7 (emphasis

47a
added)). Campo asked, “don’t you guys sell tusi …
over there?” (GX 213-T at 6 (italics in exhibit));
Santos-Pena testified that “over there” referred to the
United States (Tr. 694 (internal quotation marks
omitted)), and that “[Campo] was asking me about
whether I could send [tusi] to the U.S.” (id.):
Campo: … one kilo of sweets costs fifty thousand
dollars, one kilo.
CS-1 [Santos-Pena]: They are sending those to
Europe more, right?
Flores: Yes … they are also in the United States.
Campo: Yes, but in the United States it costs two
hundred thousand dollars per kilo [U/I].
(GX 213-T at 10 (emphases added).)
From defendants’ vague or inaudible responses--or
nonresponses--when Santos-Pena mentioned the
United States in connection with defendants’ cocaine,
contrasted with their patent enthusiasm for the much
higher prices that other drugs could be sold for “in
the United States,” a juror could rationally conclude
that if in fact defendants did not actually know their
cocaine was to be sent to the United States, they
deliberately avoided knowing it.
In sum, given the record, the evidence at trial was
ample to permit the jury to find that defendants, if
they lacked actual knowledge, deliberately avoided
learning--or forming a belief--that their cocaine was
to be bound for the United States. We conclude that
defendants’ challenges to the instruction on conscious
avoidance are without merit.
4. The Defense of Entrapment
At trial, defendants argued that they were
inexperienced and unknowledgeable, were not the

48a
large-scale narcotics traffickers that the government
painted them to be, and had been entrapped by the
government. “It is well settled that the fact that
officers or employees of the Government merely afford
opportunities or facilities for the commission of the
offense does not defeat the prosecution.” Jacobson v.
United States, 503 U.S. 540, 548, 112 S.Ct. 1535, 118
L.Ed.2d 174 (1992) (internal quotation marks
omitted) (emphasis ours). Rather,
a valid entrapment defense has two related
elements: government inducement of the crime,
and a lack of predisposition on the part of the
defendant to engage in the criminal conduct. …
Predisposition, the principal element in the
defense of entrapment, … focuses upon whether
the defendant was an unwary innocent or,
instead, an unwary criminal who readily availed
himself of the opportunity to perpetrate the crime.
Mathews v. United States, 485 U.S. 58, 63, 108 S.Ct.
883, 99 L.Ed.2d 54 (1988) (internal quotation marks
omitted) (emphases ours). When a defendant has
presented credible evidence of inducement by a
government agent, the government has the burden of
proving beyond a reasonable doubt that the defendant was predisposed to commit the crime. See, e.g.,
Jacobson, 503 U.S. at 548-49, 112 S.Ct. 1535.
The government may prove predisposition in any of
a number of ways, including by presenting evidence
of
(1) an existing course of criminal conduct similar
to the crime for which [the defendant] is charged,
(2) an already formed design on the part of the
accused to commit the crime for which he is
charged, or (3) a willingness to commit the crime

49a
for which he is charged as evidenced by the
accused’s ready response to the inducement.
United States v. Salerno, 66 F.3d 544, 547 (2d Cir.
1995) (“Salerno”) (internal quotation marks omitted),
cert. denied, 516 U.S. 1063, 116 S.Ct. 746, 133
L.Ed.2d 694 (1996); see, e.g., United States v.
Valencia, 645 F.2d 1158, 1167 (2d Cir. 1980)
(evidence that the defendants had a “readily available
source of supply for cocaine” and “were somewhat
experienced with cocaine transactions” supported an
inference that they had previously been engaged in a
similar course of criminal conduct, and thereby
established predisposition); United States v. Cromitie,
727 F.3d 194, 216 (2d Cir. 2013) (predisposition
shown by “willing[ness] to join in a terrorism plot
without any hesitation or reservation” (internal
quotation marks omitted)).
“The question of entrapment is generally one for
the jury, rather than for the court.” Mathews, 485
U.S. at 63, 108 S.Ct. 883. When a defendant contends
on appeal “that he was entrapped as a matter of law,”
he is mounting “in substance an attack on the
sufficiency of the government’s evidence of predisposition.” Salerno, 66 F.3d at 547; see, e.g., United
States v. Harvey, 991 F.2d 981, 992 (2d Cir. 1993).
And when we consider such a contention on appeal-the jury having found beyond a reasonable doubt that
the government established predisposition--we view
the evidence in the light most favorable to the
government, drawing all reasonable inferences in its
favor. See, e.g., Salerno, 66 F.3d at 547.
Here, defendants contend that the government
failed as a matter of law to establish their predisposition to commit the charged crime of importing cocaine
into the United States, arguing that no rational juror
could have found either that their responses at their

50a
October meeting with Sentado evinced their ready
willingness to commit that crime or that they were
generally involved in international drug trafficking
prior to that meeting. (See, e.g., Campo brief on
appeal at 32-36.) Given the record, we reject these
contentions.
As to an existing course of similar conduct, there
was ample evidence that defendants had long been
involved in drug trafficking, including internationally, well before they had any contact with anyone
connected with the United States Government; at
their various October meetings in Venezuela, they
told the CSes about some of their drug trafficking
experiences. For example, at their first meeting with
Santos-Pena and Santos-Hernandez on October 23,
Campo said that defendants had been doing drug
trafficking business with Mexicans. (See Tr. 619-20;
GX 203-T at 25.) Campo also described a bad incident
in which he had accepted a shipment from a
recommended narcotics supplier “relying on the fact
that it has a certain purity”; “they told me that it was
one thing and something different arrived,” and “I
lost money.” (GX 201-T at 4-5.) However, Campo left
no doubt that defendants’ overall history in the
business had been extensive and profitable. At
defendants’ October 26 meeting with the CSes,
Campo said “I’m thirty years old, [U/I] thirty years
old. I’ve been doing this work since I was eighteen”;
he said “we have made money. And ever since we
started making money, we’ve been flashy. … [W]e
have Ferraris” and a “level of comfort that … is not
going to go away because of a measly ten million
dollar deal.” (GX 207-T at 6.)
Campo’s boasts that defendants had a sizable
ongoing drug trafficking business prior to October
2015 were supported by the texts of August and

51a
September 2015 found on the phones seized from
defendants when they were arrested. They encompassed hundreds of messages from, to, or between
Campo and Flores and other drug traffickers, revealing other discussions of “looking for work,” “sell[ing
1000] chairs for the party” at “200 per unit,” the
availability of “pilot[s],” and hoping “to purchase” a
“big” airplane “as soon as we are able.” For example:
• On August 7, Flores wrote to Campo that he had
run into an individual called “Pepero” or “Pepe,” and
that Pepe was “[l]ooking for work.” (GX 405-T at 5.)
• On August 18, Campo contacted Pepe, saying,
“My cousin gave me your number.” (GX 408-T at 2.)
• On August 25, Pepe sent Campo an exchange of
messages with a person named “Mayweather” and
wrote that “he has two with a pilot and co-pilot,” and
Campo responded “[h]ere we go this is going to work
out for us.” (GX 408-T at 4-5.)
• On August 31, when Flores asked Pepe “[w]here
do we send the g5” (apparently referring to a
Gulfstream V jet (see Tr. 204)), Pepe responded: “It’s
going for el sombrero.” (GX 515-T at 3 (italics in
original).)
• On September 7, Pepe informed Campo he was
“talking with the people they want us to sell them the
chairs for the party then they will give us the
papers.” (GX 408-T at 16.) Pepe told Campo “we can
charge them 200 per unit if it’s 1000 we will be left
with 200 thousand.” (Id.)
• On September 16, Pepe sent Flores an exchange
of messages in which Mayweather--apparently
referring to models of Cessna piston engine aircrafts-had asked Pepe if they could use either a “402” or
“404” because “[t]hose are the ones which are

52a
available” (GX 515-T at 7); Flores responded that the
planes “ha[d] to be bigger” (id. at 9).
• Pepe relayed that message to Mayweather, who
responded on September 17 that he was “on the move
already” looking for “a big one” “[w]ith turbines.” (GX
515-T at 10.) Pepe sent this exchange to Flores, who
responded: “Okay let’s wait.” (Id.)
• On September 20, when Pepe informed Flores
that “[t]he other big lift is ready”; Flores responded
“[a]wesome,” told Pepe “[w]e are waiting to purchase
one as soon as we are able to,” and sent a picture of a
Learjet plane for sale at $128,500. (GX 515-T at 1112.)
• However, on September 25, Pepe sent Flores a
series of messages with Mayweather in which
Mayweather indicated that the “captain” had been
unable to obtain the necessary permit. (GX 515-T at
16-17.) Campo promptly texted Pepe that he was
frustrated at having been “postponed twice already,”
which made him look bad (GX 408-T at 18-19), and
said he had found “someone else to do it with” (id. at
18).
• In texts on September 28, 2015, between Flores
and Pepe, Pepe stated that “the taco people will be
arriving today.” (GX 515-T at 9 (emphasis added).)
• In the afternoon of October 1, Campo stated that
he was “tired of waiting” and told Pepe he was
“making arrangements with other people” (GX 408-T
at 26)--presumably Flaco.
• In a text conversation on the night of October 1,
2015, Campo and his associate “Gilson” discussed
plans to charter a plane to fly between Venezuela and
San Pedro Sula, Honduras, which would cost around

53a
$20,000, and the need to have copies of the
passengers’ passports (GX 407-T at 19-21).
Thus, the thrust of defendants’ conversations prior
to October 3, 2015, revealed their efforts to obtain
money by, inter alia, flying cocaine from Venezuela to
buyers in other countries: expressly to Honduras, as
texted on October 1, and implicitly--given the
references to the sombreros and taco people, as the
government argued without objection--to Mexico.
Campo’s frustration over delays by other would-be
drug trafficking partners was what led defendants to
go to Honduras on October 3 to meet with Sentado as
recommended by Flaco--a Honduras-based Colombian
drug trafficker who had no connection with the
United States government. The jury could easily view
defendants’ prior attempts to fly cocaine to drug
traffickers in other countries as similar to the
conduct charged here.
Finally, as to proof of predisposition through a
defendant’s response of ready willingness to commit
the crime charged, there was abundant evidence of
enthusiasm on the part of Campo and Flores for this
crime. In challenging the sufficiency of the government’s evidence of predisposition to have their
cocaine introduced into the United States, defendants
emphasize that there was no recording of the October
3 meeting with Sentado--their first meeting with
anyone working with the DEA--and thus no direct
evidence of what was said at that meeting. But this
argument is a non sequitur. If at the October 3
meeting there was no indication that the cocaine
offered by defendants would be destined for the
United States, then there was no inducement by the
government at that time.
And if there was such discussion of the United
States at that October 3 meeting, the evidence

54a
showed that defendants signed on with alacrity, as on
October 4 they told their cohort Pepe that they had
found another buyer; and on October 5 they were
urging more speed by Sentado and his associates. As
chronicled by the district court (referring to Campo as
“Campo Flores,” and to Flores as “Flores de Freitas”),
defendants’ immediate responses to whatever was
discussed on October 3 included the following:
• … [O]n October 4, 2015, Flores de Freitas
told Pepe that Defendants “already did it
[somewhere] else[ ].” GX 515-T at 26.
• On October 4, 2015, Defendants discussed
“security logistics” and purchasing several new
BlackBerrys. GX 402-T at 2-3; GX 510-T at 16.
• On October 5, 2015, Flores de Freitas
reached out to one of Sentado’s associates, Rayo,
to complain that “[t]he man has not given the
name of the contact to primo.” See GX 504-T at 2.
• On October 5, 2015, Campo Flores explained
to Sentado that “[w]hat I want is to start work
because the electoral campaign is almost here
and I always contribute … [w]ith money if you
know what I mean that is why I want to start
work.” GX 3508-38-T; Tr. 475.
• On October 12, 2015, Flores de Freitas
asked Rayo “[w]hat happened to the man he
hasn’t been in touch with el primo for a while
and we’re ready;” then subsequently explained
that “[e]verything is good brother just waiting to
receive your visit over here.” GX 504-T at 3.
Posttrial Order, 2017 WL 1133430, at *4. In sum, the
record showed that “[i]mmediately after their October
3, 2015 meeting with Sentado in Honduras,

55a
Defendants were eager to proceed full steam ahead
with the scheme.” Id.
Finally, even if at the October 3 meeting with
Sentado there was no mention of selling cocaine in
the United States, it is indisputable that distribution
in the United States was discussed at the next
meetings of Campo and Flores with Sentado’s
supposed associate Santos-Pena. Defendants first
met Santos-Pena on October 23 and met with him
again on October 26 and 27. As discussed in Parts
I.A.2.a. and II.B.1. above, the recordings of defendants’ first meeting with Santos-Pena show that in
that October 23 meeting, when Campo complained
about being unable to reach Sentado, Santos-Pena
said “I am the person who is responsible for taking
everything to the United States” (GX 203-T at 6), and
nothing indicated that defendants evinced any
hesitation or reservation about proceeding. Far from
it. The discussions promptly turned to money and
methods. Campo said he “need[ed] twenty million
dollars” “by December” because “my mom is running
for the election” (id. at 11); and they discussed the
logistics of transporting the cocaine to Honduras (see
id. at 9-10, 13-14). Campo volunteered that he might
be able to provide an airplane; and he indicated that
he had done similar business with other Mexicans
(see id. at 25).
In sum, upon mention that the drugs would be sold
in the United States, there was no semblance of any
reluctance or hesitation by these defendants, who had
spent the previous two months attempting to get
partners for their plans to fly cocaine to other
countries. Defendants’ challenge to the sufficiency of
the evidence of predisposition is meritless.

56a
C. Sentencing
The presentence report (“PSR”) prepared for each
defendant calculated a base offense level of 38 based
on drug quantity, see Guidelines §§ 2D1.1(a)(5) and
2D1.1(c), and recommended several increases for
various enhancements or adjustments. The district
court, after hearing argument on defendants’ objections, ruled that three two-step increases should be
applied, bringing each defendant’s total offense level
to 44, which was reduced to the Guidelines maximum
of 43. For that level, the Guidelines recommend life
imprisonment. The government sought a belowGuidelines sentence of 360 months.
The district court concluded that either the
Guidelines-recommended life imprisonment or the
government-requested 360 months’ imprisonment
would be “the equivalent of a life sentence” and
therefore “too harsh.” (Sentencing Transcript (“S.Tr.”)
at 42-43.) It stated,
I’m going to impose a sentence of 216 months
which will put this case at the offense level of 36,
which I think is appropriate, considering all the
circumstances, the nature and the circumstances
of the offense and the history and characteristics
of Mr. Flores De Freitas and Mr. Campo Flores.
(Id. at 43.) The court also ordered each defendant to
pay a fine of $50,000, plus the mandatory special
assessment of $100.
On appeal, defendants challenge two of the offense
level increases found appropriate by the district
court: (1) a two-step adjustment for defendants’ roles
in the conspiracy as supervisors or leaders of criminal
activity, see Guidelines § 3B1.1(c); and (2) a two-step
enhancement for use of a private aircraft for
importation, see id. § 2D1.1(b)(3)(A). We reject both

57a
challenges;
discussion.

only

the

second

requires

extended

1. The Supervisory Role Adjustments
The Guidelines recommend a two-step increase in
offense level for a defendant convicted of nonextensive criminal activity in which he was an organizer,
leader, manager, or supervisor of at least one other
participant, but of fewer than four other participants.
See Guidelines § 3B1.1(c); id. Application Note 2; see,
e.g., Garcia, 413 F.3d at 223. A “participant” for
purposes of § 3B1.1 is “a person who is criminally
responsible for the commission of the offense, but
[who] need not have been convicted.” Guidelines
§ 3B1.1 Application Note 1; see, e.g., United States v.
Ware, 577 F.3d 442, 453 (2d Cir. 2009). In imposing
such a role adjustment, the court is required to make
findings that are sufficiently specific to permit
meaningful appellate review. See, e.g., United States
v. Skys, 637 F.3d 146, 156-57 (2d Cir. 2011) (“Skys”).
When the court meets this standard, its findings of
fact will be overturned only if they are clearly
erroneous. See, e.g., United States v. Napoli, 179 F.3d
1, 14-15 (2d Cir. 1999); see generally United States v.
Persico, 164 F.3d 796, 804 (2d Cir. 1999).
Defendants, principally citing Skys, contend that
the district court erred in applying role increases to
them because it did not sufficiently identify any other
person who was criminally responsible for the
conspiracy and who was supervised or led by either
defendant. (See Flores brief on appeal at 54-58.) We
disagree.
Skys was a case in which the district court found
the defendant to have organized an “extensive”
fraudulent operation in which the court found he
“had” one named individual about whose knowledge

58a
of the fraud there was little evidence, and “had the
unwitting participation of other people at … financial
institutions.” 637 F.3d at 156 (emphasis added). We
concluded that these findings were insufficient to
permit meaningful appellate review and required a
remand for clarification or further proceedings.
In the present case, in contrast, the district court
found, after considerable discussion, that Campo and
Flores “were organizers and leaders” of the
conspiracy and that “[t]he participants that they led
and organized were Pepe, Gocho, Daza at least, and
[Carlos] Gonzalez, as well, plus the one bodyguard
Modino [sic] Moreno who was there with Mr. Flores
De Freitas in [Honduras] on the 6th of November of
2015.” (Hearing Transcript, October 3, 2017, at 56-57;
see Flores brief on appeal at 55 n.12 (“ ‘Modino
Moreno’ is not an individual who appears anywhere
in the record, though the District Court was likely
referring to Jesfran Josnel Moreno, one of Flores’s
bodyguards” (emphasis ours)).)
The court’s statement was sufficient, in light of the
trial record, to name at least one criminally culpable
person directed by Flores and one by Campo, and to
permit meaningful appellate review. The court found
that Flores brought Moreno to the November 6
meeting, which is described in Part I.A.2.c. above.
Moreno served as Flores’s bodyguard at that meeting,
at which Flores was advised about the most suitable
days and times to have a drug shipment arrive at the
Honduras airport, and at which Flores told Gomez
that defendants would have a plane arrive with their
first shipment of cocaine late in the afternoon on
November 15. With respect to Campo, although the
district court’s findings did not elaborate on the
actions and functions of Pepe, Gocho, Daza, or Carlos
Gonzalez, the trial record contained ample evidence

59a
of the participation of at least Pepe, Gocho, and Daza
in the drug trafficking conspiracy. As to Daza in
particular (who, as noted in Part I.A.1. above, was
called “Flacco”), there was evidence that it was he
who had introduced Campo and Flores, in their quest
for cocaine distributors, to Sentado (see id.); and at
defendants’ October 26 meeting with the CSes,
Campo referred to Daza as “my guy” (GX 208-T at
29), as his “very responsible” and “super loyal” guy in
Honduras (GX 207-T at 18), who, for his role, would
be paid by Campo (see GX 205-T at 50-51).
In light of the record, we see no error in the district
court’s findings that Flores and Campo each
supervised or directed at least one other criminally
culpable person.
2. The Enhancement for Private Aircraft
Guidelines § 2D1.1’s subsection (b), “Specific
Offense Characteristics” (“SOCs”), provides that a defendant’s offense level is to be increased by two steps
[i]f the defendant unlawfully imported or exported a controlled substance under circumstances in
which (A) an aircraft other than a regularly
scheduled commercial air carrier was used to
import or export the controlled substance, (B) a
submersible vessel or semi-submersible vessel as
described in 18 U.S.C. § 2285 was used, or (C)
the defendant acted as a pilot, copilot, captain,
navigator, flight officer, or any other operation
officer aboard any craft or vessel carrying a
controlled substance.
Guidelines § 2D1.1(b)(3) (emphases added). The
district court applied part (A) of this SOC to Campo
and Flores based on their plan to have the 800
kilograms of cocaine flown from Venezuela to
Honduras on an airplane coming from the

60a
“ ‘president’s hangar’ ” (Tr. 1159 (quoting GX 222-T at
18)).
Defendants contend that, given part (A)’s phrase
“was used,” employing the past tense, and given that
the present prosecution resulted from a sting operation, and the conspiracy did not result in any actual
importation of cocaine into the United States or the
actual use of an aircraft to carry cocaine, the district
court’s application of § 2D1.1(b)(3)(A) to them was
error. (See Flores brief on appeal at 52-54.) In support
of this contention, defendants rely on decisions of the
Ninth and Eleventh Circuits in United States v.
Joelson, 7 F.3d 174, 180 (9th Cir.) (“Joelson”), cert.
denied, 510 U.S. 1019, 114 S.Ct. 620, 126 L.Ed.2d 584
(1993), and United States v. Chastain, 198 F.3d 1338,
1353 (11th Cir. 1999) (“Chastain”), cert. denied, 532
U.S. 996, 121 S.Ct. 1658, 149 L.Ed.2d 640 (2001).
Reviewing the district court’s interpretation of the
Guidelines de novo, see, e.g., United States v. Valente,
915 F.3d 916, 921 (2d Cir. 2019), we are not
persuaded to follow the decisions of Joelson and
Chastain for the reasons we explain below. We begin
with observations as to the penalties prescribed by 21
U.S.C. § 963 for drug conspiracies and the evolution
of Guidelines §§ 2D1.1 and 2D1.1(b)(3)(A).
a. Statutory Penalties
Conspiracy Offenses

Prescribed

for

Most federal criminal statutes prohibit completed
substantive offenses; conspiracies to violate such
sections are generally prohibited by the umbrella
provisions of 18 U.S.C. § 371 (imposing a penalty of,
inter alia, up to five years’ imprisonment if “two or
more persons conspire either to commit any [felony]
offense against the United States, or to defraud the
United States, or any agency thereof in any manner

61a
or for any purpose, and one or more of such persons
do any act to effect the object of the conspiracy”).
A few criminal statutes, such as the Hobbs Act and
certain provisions of the Violent Crime Control and
Law Enforcement Act of 1994 (“VCCLEA”) and the
Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”), prohibit conspiracies in the same
section that prohibits the substantive crimes that are
the objects of the conspiracy. See, e.g., Hobbs Act, 18
U.S.C. § 1951 (authorizing a penalty of, inter alia, up
to 25 years’ imprisonment for a person who “in any
way or degree obstructs, delays, or affects
commerce … by robbery or extortion or attempts or
conspires so to do” (emphasis added)); VCCLEA, 18
U.S.C. § 2332a (authorizing, inter alia, “imprison[ment]
for any term of years or for life” for “[a] person who,
without lawful authority, uses, threatens, or attempts
or conspires to use, a weapon of mass destruction”
against certain persons or facilities (emphases
added)); AEDPA, 18 U.S.C. § 2339B (authorizing,
inter alia, up to 20 years’ imprisonment for a person
who “knowingly provides material support or resources to a foreign terrorist organization, or attempts
or conspires to do so” (emphases added)). For these
types of offenses, the penalties authorized for
conspiracy to commit the substantive offense are not
found in § 371. Rather the section that expressly
prohibits substantive offenses and conspiracy to
commit those offenses also specifies the applicable
penalties--but without an indication as to Congress’s
view of the two categories’ comparative seriousness.
The Controlled Substances Act--comprising a
subchapter called “Control and Enforcement,” 21
U.S.C. §§ 801-904, and a subchapter called “Import
and Export,” id. at §§ 951-971--is different. It
contains two provisions that deal solely with

62a
attempts and conspiracies, i.e., 21 U.S.C. §§ 846 and
963. In contrast to the above provisions of Title 18,
these two sections provide that
[a]ny person who attempts or conspires to
commit any offense defined in this subchapter
shall be subject to the same penalties as those
prescribed for the offense, the commission of
which was the object of the attempt or
conspiracy.
21 U.S.C. §§ 846, 963 (emphases added).
b. Guidelines § 2D1.1 and Prior § 2D1.4
When the Guidelines were first promulgated in
1987, § 2D1.1 was titled “Unlawful Manufacturing,
Importing, Exporting, or Trafficking (Including
Possession with Intent to Commit These Offenses).”
At that time (and until 1992), § 2D1.1 was not
expressly applicable to conspiracies. Instead, the
Guidelines included a separate section, § 2D1.4,
captioned “Attempts and Conspiracies,” which
provided as follows:
Base Offense Level: If a defendant is convicted of
participating in an incomplete conspiracy or an
attempt to commit any offense involving a
controlled substance, the offense level shall be the
same as if the object of the conspiracy or attempt
had been completed.
Guidelines § 2D1.4 (1987) (emphases added). This
initiated application of the provisions of 21 U.S.C.
§§ 846 and 963--that the penalties for drug
conspiracy be the same as for the drug offense that
was the object of the conspiracy--by providing that
the defendant’s base offense level would be the same
for either.

63a
Although no specific offense characteristics were
specified in § 2D1.4, we think the Guidelines
implicitly intended that the SOCs to be used in
calculating the offense level of a person convicted of a
given substantive drug trafficking offense should also
be applied to one convicted of conspiracy to commit
that offense. As the Guidelines themselves note,
among Congress’s goals in enacting the Sentencing
Reform Act of 1984, see 28 U.S.C. §§ 991-998; 18
U.S.C. §§ 3551-3586--and calling for the creation of
guidelines--were the achievement of “proportionality
in sentencing through a system that imposes
appropriately different sentences for criminal conduct
of different severity,” as well as “uniformity” by
reducing the “disparity in sentences imposed” for
similar defendants “for similar criminal conduct.”
Guidelines Chapter 1, Part A, at 1.2 (1987) (emphasis
added). Accordingly, given that Congress in §§ 846
and 963 expressly provided that a person convicted of
conspiracy to commit a substantive drug trafficking
offense be subject to the same penalties as if he had
committed that substantive offense, we infer that the
Guidelines, in providing offense level enhancements
for specific characteristics of drug offenses, were not
intended to assign the conspirator and the
substantive offender offense levels that differed.
In sum, we infer that when the Guidelines included
§ 2D1.4, they implicitly required that the offense
level of a person convicted of conspiring to commit a
drug trafficking offense be calculated with reference
to § 2D1.1(b) specific offense characteristics that
would have affected his offense level if he had been
convicted of that substantive offense.

64a
c. Section 2D1.1 and “Specific Offense
Characteristics”
The specific offense characteristic set out in
§ 2D1.1(b)(3) has been so-numbered since 2010. See
Guidelines Appendix C, Vol. III, Amendment 748, at
374 (eff. Nov. 1, 2010). It has existed in its present
form, with three subparts, since 2009. See Guidelines
Appendix C, Vol. III, Amendment 728, at 314 (eff.
Nov. 1, 2009) (inserting part (B) after part (A), and
redesignating the previous part (B) as (C)).
Prior to 1989, § 2D1.1’s subsection (b) set out only
one specific offense characteristic; it prescribed a twostep increase in offense level if a dangerous weapon
such as a firearm “was possessed,” Guidelines
§ 2D1.1(b)(1) (1988). In 1989, the subsection was
amended to add a second SOC, see Guidelines
Appendix C, Vol. I, Amendment 134, at 72 (eff. Nov.
1, 1989), the precursor of the current § 2D1.1(b)(3). It
provided for at least a two-step increase in offense
level
[i]f the defendant is convicted of violating 21
U.S.C. § 960(a) under circumstances in which (A)
an aircraft other than a regularly scheduled
commercial air carrier was used to import the
controlled substance, or (B) the defendant acted
as a pilot, copilot, captain, navigator, flight
officer, or any other operation officer aboard any
craft or vessel carrying a controlled substance.
Guidelines § 2D1.1(b)(2) (1989); see also id. (providing
that if the result of this increase brought the
defendant’s offense level to less than 26, his offense
level should be raised to 26).
In 1992, Guidelines Amendment No. 446 amended
then- § 2D1.1(b)(2), to the extent pertinent here, by
adding a reference to exportation, and by deleting the

65a
reference to a conviction under § 960(a) and referring
instead to a defendant who “unlawfully imported or
exported a controlled substance.” Guidelines
Appendix C, Vol. I, Amendment 446, at 320 (eff. Nov.
1, 1992). Thus, the then-§ 2D1.1(b)(2) provided for the
at-least-two-step increase
[i]f the defendant unlawfully imported or
exported a controlled substance under circumstances in which (A) an aircraft other than a
regularly scheduled commercial air carrier was
used to import or export the controlled substance, or (B) the defendant acted as a pilot,
copilot, captain, navigator, flight officer, or any
other operation officer aboard any craft or vessel
carrying a controlled substance.
Guidelines § 2D1.1(b)(2) (1992) (emphasis added).
At the same time, the Guidelines were amended to
delete § 2D1.4 which had expressly covered Attempts
and Conspiracies, and to make § 2D1.1--and 17 other
individual drug offense guidelines--expressly applicable to attempts and conspiracies. See Guidelines
Appendix C, Vol. I, Amendment 447, at 322-24 (eff.
Nov. 1, 1992) (“Amendment 447”). To accomplish the
latter, Amendment 447 listed each of the 18
guidelines and stated that all “are amended in their
titles by inserting at the end thereof in each instance
‘; Attempt or Conspiracy’.” Id. at 322. Accordingly, the
title of Guideline 2D1.1 was amended, effective
November 1, 1992, to read “Unlawful Manufacturing,
Importing, Exporting, or Trafficking (Including
Possession with Intent to Commit These Offenses);
Attempt or Conspiracy.” As an explanation, Amendment 447 stated only as follows:
Reason for Amendment: This amendment
clarifies and simplifies the guideline provisions

66a
dealing with attempts and conspiracies in drug
cases and conforms the structure of these
provisions to that of other offense guidelines that
specifically address attempts and conspiracies
(i.e., offense guidelines referenced by § 2X1.1(c)).
Amendment 447, at 324 (emphases added). This
statement does not suggest that any substantive
change in Guidelines treatment of drug offenses was
intended.
Section 2D1.1 thus became one of the guidelines
that, following Amendment 447, is listed in § 2X1.1
as an “Offense guideline[ ] that expressly cover[s]
conspiracies,” Guidelines § 2X1.1 Application Note 1.
Section 2X1.1 instructs that “[w]hen an attempt,
solicitation, or conspiracy is expressly covered by
another offense guideline section, apply that guideline section.” Guidelines § 2X1.1(c) (emphasis added).
As a fundamental matter of interpretation, the
Guidelines instruct that when one guideline gives “an
instruction to apply another offense guideline[ ],” that
instruction “refers to the entire offense guideline (i.e.,
the base offense level, specific offense characteristics,
cross references, and special instructions).” Guidelines § 1B1.5(a) (emphases added).
Thus, Amendment 447 clarified and made explicit
what we view as having been previously implicit. The
title of § 2D1.1 was amended to show that that
guideline expressly covers drug conspiracies; § 2X1.1
thus identifies § 2D1.1 as a guideline that does so;
§ 2X1.1(c) therefore instructs courts “to apply”
§ 2D1.1 to a defendant convicted of a drug conspiracy;
and under § 1B1.5(a), that instruction means that the
court is to apply to convicted drug trafficking
conspirators the entire § 2D1.1 guideline, including
its stated specific offense characteristics. Accordingly,
we conclude that the district court properly applied

67a
the SOC enhancement in § 2D1.1(b)(3)(A) to Campo
and Flores.
d. The Decisions in Joelson and Chastain
The decisions in Joelson and Chastain do not
persuade us to reach a contrary conclusion. In
Joelson, the defendant was convicted of having, inter
alia, conspired in 1990 to import approximately 770
kilograms of cocaine, and having aided and abetted
the importation of that cocaine, in violation of 21
U.S.C. §§ 963, 952, and 960.
[T]he cocaine was delivered to a landing strip in
Guatemala in an Arrow Commander one
thousand, which was not a “regularly scheduled
commercial air carrier.” The cocaine was
unloaded, and DEA agents took the cocaine,
stored it, and ultimately flew it into the United
States on a commercial Pan Am flight.
Joelson, 7 F.3d at 179-80. The district court’s
calculation of Joelson’s sentence included a two-step
increase in offense level pursuant to the private
aircraft enhancement in then-§ 2D1.1(b)(2)(A).
Joelson argued that that increase was error based
on the past-tense meaning of “was used” in then§ 2D1.1(b)(2)(A). The Ninth Circuit agreed and
remanded for resentencing without the two-step
increase:
Joelson argues, and we agree, that the plain
language of section 2D1.1(b)(2) should be given
effect. The cocaine was imported from the
landing strip in Guatemala to the United States.
Although a private plane flew the cocaine to
Guatemala, a commercial Pan Am air carrier
“was used to import” the cocaine into the United
States. See U.S.S.G. § 2D1.1(b)(2). Stretching the

68a
definition of “used to import” to incorporate any
use of a private airplane, regardless of whether it
was used during the actual importation of the
cocaine, flies in the face of the “plain language” of
section 2D1.1(b)(2) …. Moreover, nothing in the
commentary to section 2D1.1(b)(2) compels a
contrary conclusion. …
The government also argues that a two-level
increase in the offense level under section
2D1.1(b)(2) was proper because the coconspirators intended to use a private airplane to import
the cocaine. We disagree. Section 2D1.1(b)(2)
provides for a two-level increase only if an
aircraft other than a regularly scheduled
commercial air carrier was used to import the
cocaine. It does not provide for an increase when
the parties merely intended to use a private
airplane.
Joelson, 7 F.3d at 180 (emphases ours).
We question this reliance on the SOC’s use of the
past tense. The defendant in Joelson was sentenced
in 1991, at a time when, as indicated in Part II.C.2.c.
above, Guidelines § 2D1.1 applied to convictions for
“Unlawful Manufacturing, Importing, Exporting, or
Trafficking (Including Possession with Intent to
Commit These Offenses)” but did not cover conspiracies expressly. Given that until late 1992 § 2D1.1
was only expressly applicable to completed offenses,
it is not surprising that its SOCs were described in
language that used the past tense. Our analysis in
Parts II.C.2.a.-c. above, leading to the conclusion that
the guidelines applicable to a conviction under § 963
previously implicitly required--and now explicitly
require--application of the § 2D1.1(b) private aircraft
enhancement to drug trafficking conspirators as well
as to those convicted of the substantive drug offense

69a
that was the object of the conspiracy, is not refuted by
the simple fact that part of a guideline which was
promulgated when the guideline only expressly
covered completed offenses was phrased in the past
tense.
In Chastain, the defendants had been involved in
several months of mishaps, discussions, and negotiations in 1996 with a view to obtaining an airplane in
order to bring a large quantity of marijuana from
Jamaica to the United States. See 198 F.3d at 134447. They were arrested before any flight was made to
Jamaica to pick up the drugs and were convicted of
attempting and conspiring to import marijuana into
the United States in violation of 21 U.S.C. §§ 963 and
952(a). The district court’s calculation of the
appellants’ sentences included a two-step increase in
offense level pursuant to then-§ 2D1.1(b)(2)(A) for use
of a private aircraft. The appellants contended that
that increase was error, and the Eleventh Circuit-relying in part on Joelson--agreed:
Appellants … challenge the district court’s
application of a two-level upward adjustment for
their plan to use a private plane to import
narcotics, pursuant to U.S.S.G. § 2D1.1(b)(2).
§ 2D1.1(b)(2) states, inter alia, that “If the
defendant unlawfully imported or exported a
controlled substance under circumstances in
which an aircraft other than a regularly
scheduled commercial air carrier was used to
import or export the controlled substance, …
increase by two levels.”
Appellants argue that the enhancement was
inappropriate because no actual importation or
“use” occurred on these facts. The district court
below, in applying the enhancement, endorsed a
broad interpretation of the plain language of the

70a
guidelines, relying on the terms “Attempt or
Conspiracy” found in the title of § 2D1.1.
The Ninth Circuit, previously confronted with
interpreting § 2D1.1(b)(2), held that the intent to
use a private plane was not enough to warrant
the two-level enhancement. See United States v.
Joelson, 7 F.3d 174, 180 (9th Cir. 1993) (cert.
denied, 510 U.S. 1019, 114 S.Ct. 620, 126
L.Ed.2d 584). In Appellants’ case, there was
clearly an attempt and a conspiracy, on which
the district court relied in applying this enhancement. However, the plain language of the
guideline that uses the past tense, viz “used to
import,” cannot be ignored. When the language of
the guideline is clear, it is not necessary to look
elsewhere for interpretation. Here, the language
of the guideline clearly contemplates a completed
event, an actual importation. That did not occur
in this case. The Court will not look to the title of
a guideline to explain what is quite clear in its
text.
Thus, the district court’s reliance on the terms in
the title as explanatory of the guideline is misplaced. The two-level increase as applied to these
three Appellants, therefore, was an error of law.
Chastain, 198 F.3d at 1353 (emphases ours).
The events at issue in Chastain occurred in 1996;
by that time, § 2D1.1 of the Guidelines had been
made expressly applicable to attempts and conspiracies. Thus, we disagree with the decision in Chastain
for two reasons. First, as discussed above with
respect to Joelson, the past-tense phrasing on which
that decision and the Chastain decision relied was
adopted at a time when attempts and conspiracies
were not expressly covered by 2D1.1. Use of the past

71a
tense with respect to completed crimes strikes us not
as prescriptive but descriptive.
Second, we think the Chastain Court, in finding
that the district court erred in relying on the fact that
the title of § 2D1.1 by then included attempts and
conspiracies, gave insufficient deference to the
manner in which the Guidelines drafters chose to
indicate in 1992 that § 2D1.1 was amended to cover
attempts and conspiracies expressly. In dealing with
statutes, and attempting to fathom what Congress
intended, we look to the “factors that typically help
courts determine a statute’s objectives and thereby
illuminate its text,” to wit, “the statute’s language,
structure, subject matter, context, and history,”
Almendarez-Torres v. United States, 523 U.S. 224,
228, 118 S.Ct. 1219, 140 L.Ed.2d 350 (1998)
(emphasis added); and “the title of a statute and the
heading of a section are tools available for the
resolution of a doubt about the meaning of a statute,”
id. at 234, 118 S.Ct. 1219 (internal quotation marks
omitted). Though the Guidelines do not have the force
of law, the title of a specific guideline must be viewed
as a tool for interpreting the scope of that guideline,
especially when, as in Amendment 447, the Sentencing Commission has expressly chosen expansion of
the title as the means of “clarif[ying]” the guideline’s
express scope.
We note also that it is hardly clear that the
Eleventh Circuit itself continues to follow the holding
or reasoning of Chastain, as that court has held
§ 2D1.1(b)(2) applicable to a defendant convicted of
conspiracy despite its use of the past tense, either in
part (B) or indeed in that SOC’s introductory clause-“[i]f the defendant unlawfully imported” (emphasis
added)--which applies to all of its parts. In United
States v. Rendon, 354 F.3d 1320, 1329-30 (11th Cir.

72a
2003) (“Rendon”), the court upheld an offense level
enhancement under then-part (B) for a defendant
convicted under § 963, who had “acted as a …
captain, … aboard a[ ] craft or vessel carrying”
cocaine, Guidelines § 2D1.1(b)(2)(B) (2002) (emphases
added), despite the fact that the cocaine had been
jettisoned en route and never reached the United
States. Rejecting the defendant’s argument that
imposition of the increase was error because the
enhancement’s all-encompassing “introductory phrase …
‘if the defendant unlawfully imported or exported a
controlled substance,’ … is in the past tense,” 354
F.3d at 1330 (quoting then-§ 2D1.1(b)(2)), the Rendon
court noted that “the general heading of § 2D1.1
provides that the adjustments in § 2D1.1 apply to not
only substantive drug offenses, but also to attempt
and conspiracy offenses”; the court adopted the
reasoning of the First Circuit that an argument based
on the enhancement’s use of the past tense was
“ ‘frivolous,’ ” 354 F.3d at 1330 (quoting United States
v. Rodriguez, 215 F.3d 110, 124 (1st Cir. 2000)
(“Rodriguez”), cert. denied, 532 U.S. 996, 121 S.Ct.
1658, 149 L.Ed.2d 640 (2001)):
“The adjustment in § 2D1.1(b)(2)(B) plainly is to
be applied to convictions for conspiracy and
attempt, so long as the necessary factual predicate for the enhancement exists…. [The defendant’s] argument is simply that the substantive
crime was not committed. It simply does not
matter whether he actually carried the controlled
substance; his conspiring and his attempt to do so
warrant the application of the enhancement.”
Rendon, 354 F.3d at 1330 (quoting Rodriguez, 215
F.3d at 124 (emphases ours)).
In sum, 21 U.S.C. § 963 provides that a defendant
who has conspired to violate §§ 959 or 960 is to be

73a
subject to the same penalties as those prescribed for
one who has violated those sections. We conclude for
the reasons discussed above that § 2D1.1 of the
Guidelines expressly covers both substantive drug
trafficking offenses and drug trafficking conspiracies.
Guidelines § 2X1.1 thus instructs courts “to apply”
§ 2D1.1 to drug conspiracy convictions; and that instruction means that the court is to apply the “entire”
§ 2D1.1 guideline, “including” its “specific offense
characteristics,” Guidelines § 1B1.5(a). Accordingly,
the district court did not err in applying the SOC
enhancement in § 2D1.1(b)(3)(A) to calculate the
offense levels of Campo and Flores.
CONCLUSION
We have considered all of defendants’ arguments on
these appeals and have found in them no basis for
reversal. The judgments are affirmed.

74a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
————
No. S5 15 Cr. 765 (PAC)
————
UNITED STATES OF AMERICA,
v.
EFRAIN ANTONIO CAMPO FLORES AND
FRANQUI FRANCISCO FLORES DE FREITAS
Defendants.
————
Signed March 24, 2017
————
OPINION & ORDER
————
HONORABLE PAUL A. CROTTY, United States
District Judge:
On November 18, 2016, following a nine-day trial, a
jury convicted Defendants Efrain Antonio Campo
Flores and Franqui Francisco Flores de Freitas
(“Defendants”) of conspiring to (i) import five or more
kilograms of cocaine into the United States from a
foreign country, in violation of 21 U.S.C. §§ 952(a)
and 960(a)(1), or (ii) distribute five or more kilograms
of cocaine, knowing and intending that it would be
imported into the United States, in violation of 21
U.S.C. §§ 959(a) and 960(a)(3). The thrust of the
government’s proof was that Defendants agreed to
arrange a flight transporting 800 kilograms of

75a
cocaine from Venezuela to Honduras, knowing and
intending that the cocaine was ultimately bound for
the United States. According to the government,
Defendants—both nephews of the First Lady of
Venezuela—sought to take advantage of their
political connections by coordinating a private flight
that would appear legitimate and thus be subject to
less scrutiny, notwithstanding the illicit drug cargo it
would carry.
On January 23, 2017, Defendants renewed their
motion for a judgment of acquittal (Fed. R. Crim. P.
29(c)), and moved in the alternative for a new trial
(Fed. R. Crim. P. 33(a)). They contend that acquittal
is warranted because the government failed to
present sufficient credible evidence to support
conviction and to disprove entrapment. They also
contend that a new trial is warranted because of a
cooperating witness’s perjury and because the Court
gave an improper conscious avoidance instruction.
For the reasons stated below, the Court denies
Defendants’ motion.
DISCUSSION
I. Motion for a Judgment of Acquittal
Fed. R. Crim. P. 29(a) provides that “the court on
the defendant’s motion must enter a judgment of
acquittal of any offense for which the evidence is
insufficient to sustain a conviction.” On a Rule 29
motion, the “defendant bears the heavy burden of
showing—when viewing the evidence in the light
most favorable to the government, and drawing all
inferences in favor of the prosecution—that no
rational trier of fact could have found him guilty.”
United States v. Gaines, 295 F.3d 293, 299–300 (2d
Cir. 2002). The Court reviews all evidence “in conjunction, not in isolation,” United States v. Persico,

76a
645 F.3d 85, 104 (2d Cir. 2011), and “may enter a
judgment of acquittal only if the evidence that the
defendant committed the crime alleged is nonexistent
or so meager that no reasonable jury could find guilt
beyond a reasonable doubt,” United States v. Guadagna,
183 F.3d 122, 130 (2d Cir. 1999) (internal quotation
marks omitted).
A. Conviction
1. Agreement
Defendants argue that the evidence at trial was
insufficient to establish beyond a reasonable doubt
that they “agreed on the essential nature of the plan.”
See United States v. Lorenzo, 534 F.3d 153, 159 (2d
Cir. 2008) (citation and alteration omitted).
The government’s brief thoroughly details the
evidence offered at trial of Defendants’ participation
in the charged conspiracy.1 The evidence showed that
in a November 6, 2015 meeting in Honduras with an
air traffic controller from the Roatan Airport in
Honduras, Flores de Freitas agreed that the cocaine
shipment would arrive on November 15, 2015,
between approximately 4:30 and 5:20 pm. See GX
222-T at 7-9; GX 223-T at 6. Thereafter, on November
10, 2015, Defendants traveled to Haiti to pick up
1 The government’s evidence included transcripts of recorded
meetings that Defendants attended, Defendants’ text messages,
Defendants’ confessions, and expert testimony about drug
trafficking routes in South America. Among the Defendants’ text
messages were photographs from a Gilson Nuevo (“Gilson”) of
what appear to be firearms, and discussion about the acquisition
of those apparent firearms. See GX 407-T at 3–7. Defendants’
evidence included confidential source agreements for a testifying
cooperating witness, transcripts of that cooperating witness’s
prison calls, a photograph of what appears to be Gilson playing
paintball on a Venezuelan national team, see DX 326, and
photographs of hyper-realistic airsoft guns, see DX 334–339.

77a
their payment from confidential source (“CS”) Jose
Santos-Pena (“CS-1”). See Tr. 379. At that meeting
with CS-1, Defendants confirmed that the shipment
would be made on November 15, 2015, see GX 231-T
at 19, Campo Flores specified that the delivery time
was set for between 4:30 and 5:30, see id. at 21, and
Flores de Freitas indicated that the flight was
destined for the Roatan airport, see id. at 22.
Defendants even explained that the cocaine was
already in suitcases. See id. at 20–21.
Nonetheless, Defendants argue that the trail goes
cold here because there was no agreement to send
cocaine from Venezuela up through Central America
and then on to the United States. They focus on
questions Campo Flores asked CS-1 at the November
10, 2015 meeting about selling cocaine in Canada and
Europe, and characterize this discussion as a
“counterproposal.” See Mot. at 24–25. But Campo
Flores’s general questions about other countries,
reviewed in the context of the entire discussion at the
November 10, 2015 meeting, do not suggest that he
was making a counterproposal. Viewing the evidence
in conjunction, and in the light most favorable to the
government, the Court does not find the evidence
introduced at trial so meager that no reasonable jury
could have found Defendants agreed on the essential
terms of the conspiracy.
2. Specific Intent
Defendants assert that even if a criminal agreement existed, there was still insufficient evidence of
their knowledge or intent that the destination of the
cocaine would be the United States. See United States
v. Londono-Villa, 930 F.2d 994, 999 (2d Cir. 1991);
United States v. Romero-Padilla, 583 F.3d 126, 129
(2d Cir. 2009). They argue that “there is no evidence
that the Defendants even heard, much less under-

78a
stood or agreed to, the informants’ supposed decision
to target the United States.” Mot. at 27. The Court
disagrees.
First, the government introduced evidence through
the expert testimony of Drug Enforcement Administration (“DEA”) Special Agent Daniel Mahoney that
approximately 80 percent of the cocaine sent from
Venezuela along the Central American corridor (i.e.,
“traveling through Central America and along its
shores up into Mexico into the United States”) is
destined for the United States. See Tr. 544, 562. And
cocaine that travels along the Central American route
bound for Canada also goes over land through the
United States. See Tr. 584. Further, Special Agent
Mahoney offered his expert opinion that drug
traffickers as well as “a fair amount of the population” in South America have knowledge of these drug
routes. See Tr. 578–79.
Second, the two CSes discussed importing drugs to
the United States at least 13 times in recorded
conversations with Defendants. While Defendants are
correct that they never explicitly manifested their
agreement to target the United States in those
recordings, an explicit manifestation is not required.
Both Defendants conceded in their confessions that
CS-1 had told them that the drugs were bound for the
United States. See Tr. 152–53, 161.
In light of Special Agent Mahoney’s testimony, the
CSes’ repeated statements about the United States,
and Defendants’ own confessions, Defendants have
failed to show that there was insufficient evidence at
trial to support the verdict on this basis.
3. Manufactured Jurisdiction
Defendants next argue that jurisdiction was manufactured because the “references to the United States

79a
were unilaterally supplied by persons working on
behalf of the Government, not the Defendants.” See
Mot. at 28. They contend that “[i]n the absence of
evidence of a ‘voluntary action’ on the part of the
Defendants implicating the United States nexus …
there has been a failure of proof as to an essential
element of the offense, and a judgment of acquittal
should be entered.” See id. at 29 (citation omitted).
“The unproved-element theory of manufactured
jurisdiction is that if the government unilaterally
supplies an essential element of a crime, the
government has in effect failed to prove that element
as to the defendant.” United States v. Al Kassar, 660
F.3d 108, 120 (2d Cir. 2011). However, “jurisdiction is
not manufactured if the defendant then takes
voluntary actions that implicate the governmentinitiated element.” Id. (internal quotation marks and
alteration omitted).
Even if the government unilaterally introduced the
concept of targeting the United States, the unprovedelement theory still would not apply here because
Defendants subsequently took a number of voluntary
actions in furtherance of the conspiracy. Those
actions include: (1) continuing to meet and discuss
the arrangement, and even bringing what the evidence indicates was a brick of cocaine to one of the
meetings; (2) attempting to send pilots to Honduras
to continue discussions about logistics; (3) traveling
on November 6, 2015 to Honduras for further
discussions about the logistics of unloading the 800
kilograms of cocaine; and (4) flying to Haiti on
November 10, 2015 to pick up money for the deal and
to finalize details.

80a
4. CS-1’s Testimony
Defendants contend that CS-1’s trial testimony
should be “wholly disregarded for purposes of the
sufficiency analysis” because it is unreliable as a
matter of law. See Mot. at 29. “Rule 29 does not
provide the trial court with an opportunity to
substitute its own determination of the weight of the
evidence and the reasonable inferences to be drawn
for that of the jury.” United States v. Truman, 688
F.3d 129, 139 (2d Cir. 2012) (internal quotation
marks and alteration omitted). The Court called the
jury’s attention to the fact that CS-1 had lied and
instructed them that they were “quite free to reject
all or any part of his testimony.” Tr. 1481–82. Thus,
“[a]ssessing his credibility was the province of [the]
jury,” and the Court declines Defendants’ invitation
to usurp the jury’s function. See Truman, 688 F.3d at
140.
B. Entrapment
“Entrapment is an affirmative defense that
requires a defendant to prove by a preponderance of
the evidence the government’s inducement to commit
the crime.” United States v. Taylor, 475 F.3d 65, 69
(2d Cir. 2007) (alteration omitted). If a defendant
satisfies this burden, the government “must show
predisposition beyond a reasonable doubt.” United
States v. Bala, 236 F.3d 87, 94 (2d Cir. 2000).
1. Inducement
Defendants argue that they were induced to commit
the charged crime. Viewing the evidence in the light
most favorable to the government, however, the Court
cannot agree.
In their confessions, both Defendants admitted that
they were introduced to an individual called Negrito

81a
or El Flaco (a/k/a Cesar Orlando Daza (“Daza”)), by a
Venezuelan contact called Hamudi. See Tr. 149–50,
162–63, 180. The evidence shows that Daza, in turn,
introduced Defendants to Carlos Amilcar Leva
Cabrera (a/k/a Sentado), see id., and Sentado, who
was cooperating with the government, contacted the
DEA about Defendants, see Tr. 167, 169, 172.
Notwithstanding this chain of introductions,
Defendants take the position that Sentado instigated
and orchestrated the entire sting operation, all the
way down to selecting Defendants as targets. See
Reply at 35. Since there is no evidence that Sentado
contacted Defendants, Defendants rely on a theory of
derivative entrapment to argue that Sentado used his
“henchmen” to “lure” Defendants into the conspiracy.
See id. at 34.
“A defendant is entitled to a derivative entrapment
defense … when the government’s inducement was
directly communicated to the [defendant] by an
unwitting middleman.” United States v. Pilarinos,
864 F.2d 253, 256 (2d Cir. 1988) (internal quotation
marks omitted). There is simply no evidence here,
however, that Sentado—either acting alone or
through his “henchmen”—initiated the crime or set
Defendants’ participation in the conspiracy in motion.
See United States v. Brand, 467 F.3d 179, 190 (2d Cir.
2006).
The government, however, points to evidence that
Defendants sought to coordinate a similar drug
trafficking arrangement with an individual identified
as Pepe. That arrangement was apparently slow in
coming together, and on September 29, 2015—four
days before Defendants met with Sentado—Flores de
Freitas explained to Pepe, “[i]f we don’t have
anything by tomorrow efra [i.e., Campo Flores] is
already looking to figure something out elsewhere.”

82a
GX 515-T at 19. Then on October 4, 2015—the day
after meeting with Sentado—Pepe wrote to Flores de
Freitas that “[w]e will meet tomorrow morning to
finalize things,” to which Flores de Freitas responded,
“we already did it somewhere else.” Id. at 26. This
undercuts Defendants’ contention that they were
induced, and instead provides context for the reasonable conclusion that Defendants themselves actively
sought out the charged conspiracy.
The evidence (or the lack of it) that Defendants rely
on to show inducement is (1) Sentado’s failure to
record his October 3, 2015 meeting with Defendants;
and (2) the DEA’s purported mismanagement of
Sentado, including its failure to obtain all evidence
from Sentado relating to that meeting. The inference
Defendants seek to draw from this is that Sentado
intentionally withheld (or failed to create) evidence
because he wanted to curry favor with the government and knew that his meeting with Defendants
would show that there was no case against them. See
Mot. at 36. After weighing the government’s evidence
against this inference, however, the Court concludes
that a reasonable jury could have found that Defendants failed to sustain their burden of proving, by a
preponderance of the evidence, that they were induced.
2. Predisposition
Even if Defendants were induced, they cannot
sustain their burden of showing that the government’s
predisposition evidence was insufficient. The government may prove predisposition “by demonstrating: (1)
an existing course of criminal conduct similar to the
crime for which the defendant is charged, (2) an
already formed design on the part of the accused to
commit the crime for which he is charged, or (3) a
willingness to commit the crime for which he is
charged as evidenced by the accused’s ready response

83a
to the inducement.” United States v. Al-Moayad, 545
F.3d 139, 154 (2d Cir. 2008) (internal quotation marks
and alteration omitted).
Defendants focus again on the lack of evidence from
the October 3, 2015 meeting with Sentado in
Honduras. They argue that “the recording would
have demonstrated how naïve and unsophisticated
the Defendants were” and also would have undermined the government’s argument that Defendants
readily responded to any inducement. See Reply at
39. Any lack of sophistication or experience in the
drug trade, however, is not hardly dispositive. There
is a beginning for everything, and nothing excuses a
crime, even if it is the first time. More importantly,
the suggestion that the October 3, 2015 meeting
would have shown that Defendants did not readily
respond to any inducement is seriously undercut by
the evidence introduced at trial.
There was significant evidence of Defendants’ ready
response to any inducement, and thus of Defendants’
willingness to commit the charged crime. Immediately
after their October 3, 2015 meeting with Sentado in
Honduras, Defendants were eager to proceed full
steam ahead with the scheme:
• As discussed above, on October 4, 2015, Flores de
Freitas told Pepe that Defendants “already did it
elsewhere.” GX 515-T at 26.
• On October 4, 2015, Defendants discussed
“security logistics” and purchasing several new
BlackBerrys. GX 402-T at 2-3; GX 510-T at 16.
• On October 5, 2015, Flores de Freitas reached
out to one of Sentado’s associates, Rayo, to complain
that “[t]he man has not given the name of the contact
to primo.” See GX 504-T at 2.

84a
• On October 5, 2015, Campo Flores explained to
Sentado that “[w]hat I want is to start work because
the electoral campaign is almost here and I always
contribute … [w]ith money if you know what I mean
that is why I want to start work.” GX 3508-38-T; Tr.
475.
• On October 12, 2015, Flores de Freitas asked
Rayo “[w]hat happened to the man he hasn’t been in
touch with el primo for a while and we’re ready;” then
subsequently explained that “[e]verything is good
brother just waiting to receive your visit over here.”
GX 504-T at 3.
The evidence also shows that once Defendants
concluded that the scheme with Sentado was not
progressing fast enough for them, they called it off.
On October 16, 2015, Rayo and Flores de Freitas had
the following text exchange:
Rayo: The man says for you to contact him
Flores de Freitas: Brother we called that off because we have a huge issue with communication
Flores de Freitas: There’s no communication and
we can’t do it that way brother the man always
has a lot of things to do
Flores de Freitas: When he has the time required
for this we will always be here
Flores de Freitas: But he has not written to
primo
Flores de Freitas: He says he’s been waiting
several days for your answer
GX 504-T at 5. Once things started to move more
rapidly, however, the evidence is that Defendants reengaged with the scheme.

85a
They met with CS-1 and his son, Jose SantosHernandez (“CS-2”), in Caracas on October 23, 2015,
at which time Campo Flores explained that because
no one had visited, he “started to look around
elsewhere” and even “met up separately” with
someone else. See GX 203-T at 10–11. Then, between
October 23, 2015 and November 10, 2015 (the day of
Defendants’ arrests), Defendants met with CS-1 and
CS-2 in a Caracas office building on two additional
occasions, including the October 27, 2015 meeting to
which Campo Flores brought a brick of cocaine;
Flores de Freitas traveled to Honduras to iron out
delivery and logistics; and Defendants traveled to
Haiti to finalize details of the cocaine shipment and
pick up payment.
In light of this sequence of events, the Court
concludes that there was sufficient evidence for a
reasonable jury to find that Defendants were
predisposed.
3. Interests of Justice
Citing no authority, Defendants argue that even if
there were sufficient evidence disproving entrapment, the jury’s verdict should still be set aside in the
interests of justice because of (1) “the overall
unreliability of the Government’s case;” and (2) “a
glut of evidence that the Government pursued the
Defendants for reasons wholly unrelated to the
charges in this case.” Mot. at 42–43. At bottom, this is
yet another invitation for the Court to usurp the role
of the jury. Once again, the Court must decline. The
Court is not in any better a position than the jury
was to find the facts of this case, nor do the interests
of justice require that the verdict be set aside.

86a
II. Motion for a New Trial
Pursuant to Fed. R. Crim. P. 33(a), “the court may
vacate any judgment and grant a new trial if the
interest of justice so requires.” The Court has “broad
discretion to set aside a jury verdict,” but “[t]he
ultimate test on a Rule 33 motion is whether letting a
guilty verdict stand would be a manifest injustice.”
United States v. Ferguson, 246 F.3d 129, 133-34 (2d
Cir. 2001) (alteration omitted). The Court “must
exercise the Rule 33 authority sparingly and in the
most extraordinary circumstances.” Id. at 134
(internal quotation marks omitted).
A. Perjury
“A conviction obtained by the knowing use of
perjured testimony is fundamentally unfair, and
must be set aside if there is any reasonable likelihood
that the false testimony could have affected the
judgment of the jury.” United States v. Cromitie, 727
F.3d 194, 221 (2d Cir. 2013) (alteration omitted). “In
order to be granted a new trial on the ground that a
witness committed perjury, the defendant must show
that (i) the witness actually committed perjury; (ii)
the alleged perjury was material; (iii) the government
knew or should have known of the perjury at the time
of trial; and (iv) the perjured testimony remained
undisclosed during trial.” Id. (alteration omitted).
At trial, CS-1 testified that in his lay opinion a
brick of a white powdery substance that Campo
Flores brought to an October 27, 2016 meeting in
Caracas, Venezuela was good quality cocaine. See Tr.
693. CS-1 testified, “I took a little bit with my hands.
I smelled it to see if it smelled of cocaine. I looked at
the color to see what kind of color it had. I rubbed it a
little on my hand so that it would release the oils on
my hand and see how much oil it would release.” Tr.

87a
692. Defendants attempt to show through the
declaration of Dr. Andrea Holmes that CS-1
committed perjury in describing his purported test.
Dr. Holmes is an Associate Professor of Chemistry
at Doane University, located in Crete, Nebraska.
Declaration of Dr. Andrea Holmes (“Holmes Decl.”),
Dkt. 159, ¶ 1. She challenges CS-1’s ability to identify
the white powdery substance as cocaine because CS-1
could not, with heat generated from his hands alone,
“turn powder cocaine into an ‘oil.’ ” See id. ¶ 5. Dr.
Holmes states that “the process [CS-1] [described] is
the phase transition of a solid substance, here a white
powder, to a liquid, here supposedly an ‘oil.’ ” Id.
Interesting; but that was not CS-1’s trial testimony.
CS-1 did not testify that he altered the physical state
of the white powdery substance; rather, he testified
that when he rubbed the substance, it released oils on
his hand, and that the oil was “buttery” and “greasy.”
See Tr. 692–93, 922–23. Dr. Holmes’ declaration is
silent as to whether cocaine, in its solid state, can be
oily, buttery, or greasy when rubbed.
Dr. Holmes also explains that color is not a reliable
method for identifying cocaine as “there are
numerous similar looking types of white powders or
crystalline substances, such as caffeine, sugar,
baking soda, corn starch, talcum powder.” Holmes
Decl. ¶ 4. And she thinks it is implausible that CS-1
would have been able to identify cocaine based on
smell “unless his olfactory system [was] somehow
well developed like one of a sniffing dog.”2 Id. ¶ 6. But
2 Dr.
Holmes also asserts that CS-1 could not have
determined that the substance was cocaine with a purity of 95 to
97 percent using his test. See Holmes Decl. ¶ 7-8. But CS-1 did
not testify at trial that the purity of the cocaine was between 95
and 97 percent. See Tr. 693. Instead, CS-1’s statement about the
purity percentage range of the substance was made during his

88a
Dr. Holmes takes these sensory examinations in
isolation. CS-1 did not testify that sight, touch, or
smell—standing alone—would have been sufficient to
determine that the substance was cocaine. This is an
important distinction. While an individual might not
be able to distinguish, for example, between
powdered sugar and talcum powder based on sight
alone, with the benefit of smell and touch, it seems
highly likely that individual would be able to do so.
Taking the three sensory tests holistically, the Court
cannot conclude that CS-1 perjured himself when he
provided his lay opinion that the substance was good
quality cocaine.3
To be sure, there is no doubt that CS-1 testified
falsely at trial. The clearest instance of perjury was
CS-1’s testimony that he did not communicate with
his son, CS-2, while they were in jail. See, e.g., Tr.
929. Defendants effectively put the lie to CS-1’s
testimony when they played recorded prison calls
plainly showing that CS-1 and CS-2 communicated in
jail. See, e.g., Tr. 955–57. There is substantial reason
to believe that, in light of CS-1’s continuous pattern
of lying, the government should have known about
the contents of CS-1’s prison calls. Nonetheless, the
Court cannot conclude that the false testimony is so
related to Defendants’ offense conduct such that
recorded conversation with the two Defendants in Caracas, at
the meeting where Campo Flores produced the sample. See id.
His testimony at trial was only that the cocaine was good
quality. See id.
3 The Court also notes that even if CS-1 committed perjury in
describing his test for identifying the substance, as described in
greater detail above, the Government offered sufficient evidence
to support the verdict. The Court is therefore not “left with a
firm belief that but for the perjured testimony, the defendant[s]
would most likely not have been convicted.” United States v.
Wallach, 935 F.2d 445, 456 (2d Cir. 1991) (alteration omitted).

89a
there was a “reasonable likelihood that these lies
could have affected the judgment of the jury.” See
Cromitie, 727 F.3d at 223 (internal quotation marks
omitted). This is especially true because Defendants
exposed CS-1’s false testimony on cross-examination,
see, e.g., Tr. 955–57, the government responded by
functionally ripping up CS-1’s 5K1 letter in front of
the jury, Tr. 984–85, and the Court instructed the
jury that the government told CS-1 “that he would
not receive a 5K1 letter because he had lied,” Tr.
1481-82.
B. Conscious Avoidance Instruction
Defendants contend that they never agreed to
import or distribute cocaine in the United States. “A
conscious avoidance instruction may only be given if
(1) the defendant asserts the lack of some specific
aspect of knowledge required for conviction, and (2)
the appropriate factual predicate for the charge
exists….” United States v. Svoboda, 347 F.3d 471, 480
(2d Cir. 2003) (internal quotation marks and
alteration omitted). The second prong of the test “has
two components—there must be evidence that the
defendant (1) was aware of a high probability of the
disputed fact and (2) deliberately avoided confirming
that fact.” Id. “A factual predicate may be established
where a defendant’s involvement in the criminal
offense may have been so overwhelmingly suspicious
that the defendant’s failure to question the suspicious
circumstances establishes the defendant’s purposeful
contrivance to avoid guilty knowledge.” United States
v. Lange, 834 F.3d 58, 78 (2d Cir. 2016) (internal
quotation marks and alteration omitted).
Defendants contend that the Court erred in giving
a conscious avoidance instruction because there was
no evidence that Defendants deliberately avoided
confirming that the conspiracy targeted the United

90a
States. The Court disagrees. A conscious avoidance
instruction was appropriate because the evidence
that the government introduced at trial supported
inferences both that Defendants had actual knowledge, and had consciously avoided confirming, that
the conspiracy targeted the United States.
The government presented evidence that Defendants made a tactical decision not to confirm that
the cocaine was bound for the United States. There
are at least 13 recorded instances where the CSes
made statements about taking drugs to the United
States. Yet in all of those instances, Defendants
never really respond to the CSes’ statements. Campo
Flores appears to have provided the explanation for
why. In his confession, Campo Flores initially took
the position “that he did not know the drugs were
going to the United States and that those words
never came out of his mouth.” Tr. 152. However, after
DEA Special Agent Sandalio Gonzalez explained to
Campo Flores that “there are recordings of his
meetings and that [Campo Flores] didn’t necessarily
have to say it himself but he knew that the Mexican
individual had said that,” Campo Flores responded
“yes, but I didn’t emphasize it.” Tr. 153. This is strong
evidence that, in order to maintain deniability,
Defendants made a conscious attempt to avoid
confirming that the target of the conspiracy was the
United States. And in fact, because Defendants did
not respond to the CSes’ repeated references to the
United States, the defense was able to use as a theme
throughout the trial that Defendants did not know
the target of the conspiracy was the United States.
The structure of Defendants’ plan also supports the
conclusion that they intentionally avoided confirming
that the target of the conspiracy was the United
States. As Special Agent Mahoney testified, drug

91a
traffickers send drugs up through the Central
American corridor in order “to recede from their role
in getting the cocaine to the United States,” See Tr.
544. Thus, approximately 80 percent of the cocaine
sent from Venezuela along the Central American
corridor is bound for the United States. See Tr. 562.
And in Special Agent Mahoney’s expert opinion, drug
traffickers and “a fair amount of the population” in
South America have knowledge of drug routes. See
Tr. 578–79. Here, Defendants agreed to help move
800 kilograms of cocaine up the Central American
corridor, from Venezuela to Honduras, and Special
Agent Mahoney’s testimony shows that Defendants
likely knew that there was a high probability the
cocaine would go to the United States. The fact that
Defendants did not explicitly confirm that the cocaine
would be destined for the United States (especially
after the CSes’ myriad references to taking drugs to
the United States) establishes their “purposeful
contrivance to avoid guilty knowledge.” See Lange,
834 F.3d at 78.
CONCLUSION
Accordingly, the Court DENIES Defendants’ Rule
29 and Rule 33 motion. The government must
promptly produce any Brady and Giglio materials
responsive to Defendants’ November 14, 2016 letter
request. See Dkt. 166-1. Sentencing is scheduled for
June 26, 2017 at 11:30 a.m. The Clerk of Court is
directed to close the motion at docket number 158.
SO ORDERED.

92a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket Nos: 17-4039 (L), 17-4141 (Con)
————
UNITED STATES OF AMERICA,
Appellee,
v.
EFRIAN ANTONIO CAMPO FLORES, FRANQUI
FRANCISCO FLORES DE FREITAS,
Defendants – Appellants.
————
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
20th day of March, two thousand twenty.
————
ORDER
————
Appellant, Franqui Francisco Flores De Freitas,
filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.

93a
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL] United States Court of
Appeals Second Circuit
/s/ Catherine O’Hagan Wolfe

94a
APPENDIX D
————
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket Nos. 17-4039(L), 17-4141(Con)
————
UNITED STATES OF AMERICA,
Appellee,
v.
EFRIAN ANTONIO CAMPO FLORES, FRANQUI
FRANCISCO FLORES DE FREITAS,
Defendants – Appellants.
————
At a Stated Term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
20th day of December, two thousand nineteen.
————
Filed March 31, 2020
————
Before: Amalya L. Kearse, Dennis Jacobs,
Robert D. Sack, Circuit Judges.
————
JUDGMENT
————

95a
The appeals in the above captioned case from
judgments of the United States District Court for the
Southern District of New York were argued on the
district court’s record and the parties’ briefs. Upon
consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the judgments of the district court
are AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL] United States Court of
Appeals Second Circuit
/s/ Catherine O’Hagan Wolfe
MANDATE ISSUED ON 03/31/2020

